                                            UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


AUD-CG-14-07                                     Office of Audits                                     January 2014




   Audit of Department of State Selection and
     Positioning of Contracting Officer’s
                Representatives




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                            UNCLASSIFIED
                                                              United States Department of State
                                                              and the Broadcasting Board of Governors

                                                              Office of Insp ector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 ofthe Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

    I express my appreciation to all of those who contributed to the preparation of this report.




                                            Norman P. Brown
                                            Acting Assistant Inspector General
                                             for Audits
                                   UNCLASSIFIED



Acronyms
AF         Bureau of African Affairs
AFRICAP    Africa Peacekeeping
AHCP       Acquisition Human Capital Plan
A/LM/AQM   Bureau of Administration, Office of Logistics Management, Office of
           Acquisitions Management
A/OPE      Bureau of Administration, Office of the Procurement Executive
CO         Contracting Officer
COR        Contracting Officer’s Representative
CORT       Contracting Officer’s Representative Tracking Tool
DGHR       Director General of the Foreign Service and Director of Human Resources
DoD        Department of Defense
DOSAR      Department of State Acquisition Regulation
FAC-COR    Federal Acquisition Certification for Contracting Officer’s Representatives
FAH        Foreign Affairs Handbook
FAM        Foreign Affairs Manual
FAR        Federal Acquisition Regulation
GTM        Government Technical Monitor
INL        Bureau of International Narcotics and Law Enforcement Affairs
NEA        Bureau of Near Eastern Affairs
NEC        New Embassy Compound
OBO        Bureau of Overseas Buildings Operations
OFPP       Office of Federal Procurement Policy
OIG        Office of Inspector General
OMB        Office of Management and Budget
PIB        Procurement Information Bulletin
PSC        Personal Services Contract




                                   UNCLASSIFIED
                                                            UNCLASSIFIED


                                                         Table of Contents
Section                                                                                                                                      Page

Executive Summary .........................................................................................................................1

Background. .....................................................................................................................................2

Objective ..........................................................................................................................................6

Audit Results....................................................................................................................................6
       Finding A. COR and GTM Experience, Positioning, and Oversight Were
                      Adequate for Three of Four Contracts Reviewed .............................................6
       Finding B. Challenges Existed With COR Experience, Positioning, and Oversight
                      Within the Bureau of African Affairs .............................................................10
       Finding C. Department-Wide COR Workforce Management and Planning Needs
                      Improvement ..................................................................................................18
       Finding D. Department COR-Specific Policies Need Implementation Guidance ...........22

List of Recommendations ..............................................................................................................32

Appendices
      A. Scope and Methodology...............................................................................................34
      B. Bureau of African Affairs Response ............................................................................37
      C. Bureau of Administration Response ............................................................................44

Major Contributors to This Report ................................................................................................49




                                                            UNCLASSIFIED
                                             UNCLASSIFIED


                                         Executive Summary
       Contracting Officer’s Representatives (COR) serve as important members of the
Department of State (Department) acquisition workforce. CORs handle such critical contract
administration tasks as verifying receipt of goods and services before payments are made on
contractor invoices, providing general oversight of contract performance, and working with the
contractor and the Contracting Officer (CO) to resolve any problems that may arise. In addition,
Government Technical Monitors (GTM) are sometimes assigned to assist CORs in performing
oversight responsibilities, particularly on those contracts that have several sites at which the
work is being completed.

         From 2009 to 2011, the Department’s Office of Inspector General (OIG) issued four
reports 1 that identified deficiencies for particular Department contracts in the performance of
COR responsibilities and COR positioning, that is, CORs being placed in the most optimal
locations from which to perform their responsibilities. OIG initiated this audit to determine the
extent to which the Department’s CORs and GTMs were selected and positioned to successfully
perform their assigned contract administration and oversight responsibilities. To fulfill the audit
objective, OIG examined one contract judgmentally selected from each of four bureaus: the
Bureau of African Affairs (AF), the Bureau of International Narcotics and Law Enforcement
Affairs (INL), the Bureau of Near Eastern Affairs (NEA), and the Bureau of Overseas Buildings
Operations (OBO).

        OIG found that COR and GTM experience, positioning, and oversight were adequate for
three of the four contracts reviewed. For the fourth contract, however, OIG found inadequate
COR experience, positioning, and oversight within AF, which resulted in AF’s using third-party
contractors to perform inherently governmental functions. OIG also found significant
COR-related internal control weaknesses. Specifically, Department-wide COR workforce
management and planning needs to be improved, and certain Department COR-related policies
require implementation guidance to be effective.

         OIG made recommendations to improve contract administration and oversight within AF,
such as requiring prior contract oversight experience for individuals who would perform
COR-related duties and pursuing all opportunities to employ Government employees rather than
contractors for COR duties. OIG also made recommendations to improve COR workforce
management and policies, to include specifying the types of information that should be
documented in COR nomination memoranda, and to improve acquisition workforce planning
efforts, to include requesting input from all Department bureaus in developing the annual
Acquisition Human Capital Plan (AHCP).


1
  DoD and DOS Need Better Procedures to Monitor and Expend DoD Funds for the Afghan National Police
Training Program (AUD/CG-11-30, July 2011), Performance Evaluation of PAE Operations and Maintenance
Support for the Bureau of International Narcotics and Law Enforcement Affairs Counternarcotics Compounds in
Afghanistan (MERO-I-11-02, Feb. 2011), Audit of Allegations Pertaining to Contract With DynCorp International
for the Security Sector Transformation Project in South Sudan, Africa (AUD/SI-10-23, Aug. 2010), and Inspection
of the Bureau of African Affairs (ISP-I-09-63, Aug. 2009).

                                                  1
                                             UNCLASSIFIED
                                               UNCLASSIFIED

       In its December 9, 2013, responses (see Appendices B and C) to the draft report, the
Department concurred with four recommendations, did not concur with one recommendation,
and did not state whether or not it concurred with five recommendations. Based on the
responses, OIG considers five recommendations resolved, pending further action, and five
recommendations unresolved. Management responses and OIG’s replies to those responses are
included after each recommendation.

                                                Background
         In FY 2011, the Department spent approximately $8.2 billion in contract actions in
support of its mission. Therefore, ensuring that the Department’s acquisition oversight
workforce has the experience, training, and capability to be effective stewards of resources is
essential to efficient operations at the Department and to ensuring that Federal funds are spent
wisely. The Department accomplishes contract oversight mainly through CORs and GTMs, both
of whom are an integral part of the Department’s acquisition workforce. According to the
Department’s Contracting Officer’s Representative Handbook, 2 the COR is the “eyes and ears”
of the CO. The Handbook states that while COs are experts in contracting procedures, they
rarely have the requisite technical expertise to ensure successful contract completion.
Accordingly, the Foreign Affairs Handbook 3 (FAH) states that the CO must rely on the COR to
assist in contract administration to ensure that the contractor accomplishes the technical and
financial aspects of the contract. The Department of State Acquisition Regulation 4 (DOSAR)
further allows COs to designate technically qualified personnel as their authorized
representatives, prescribing that “only Department of State employees 5 who have completed
adequate training and have the necessary experience and judgment shall be appointed as CORs.”

       At the request of a COR, a CO may appoint a GTM to assist with contract administration
and contractor oversight. The DOSAR states that a GTM may be appointed “because of physical
proximity to the contractor’s work site, because of special skills or knowledge necessary for
monitoring the contractor’s work, or to represent the interests of another requirements office or
post concerned with the contractor’s work.” 6

       According to the Foreign Affairs Manual 7 (FAM), the Office of the Procurement
Executive (A/OPE) “evaluates, monitors[,] and reports . . . on the performance of the
Department’s procurement system.” As a part of this responsibility, A/OPE prescribes the
Department’s acquisition policies, regulations, and procedures and develops and maintains a
procurement career management program to ensure an adequate professional workforce.



2
  14 FAH-2, “Contracting Officer’s Representative Handbook.”
3
  Ibid.
4
  DOSAR 642.270, “Contracting Officer’s Representative.”
5
  For the purposes of this section, the DOSAR notes that the definition of employee included both Civil Service and
Foreign Service employees, as well as personal services contractors.
6
  DOSAR 642.271(a).
7
  1 FAM 212.2, “Office of the Procurement Executive (A/OPE).”

                                                    2
                                               UNCLASSIFIED
                                          UNCLASSIFIED


Federal Acquisition Certification Requirements for CORs and GTMs

        Aside from possessing the requisite technical expertise to oversee contract performance,
CORs and GTMs must also obtain specific COR-related training and experience. 8 To
accomplish this, the Office of Federal Procurement Policy (OFPP) requires CORs and GTMs to
be certified under the Government-wide Federal Acquisition Certification for Contracting
Officer’s Representatives (FAC-COR) program before appointment. A/OPE implemented this
program within the Department on July 29, 2010. Initially, the FAC-COR certification program
required that CORs and GTMs demonstrate that they had received COR-related training to be
certified under a single-tier structure. OFPP later revised the certification program from one tier
to three tiers, which A/OPE subsequently implemented within the Department on August 8,
2012, through Procurement Information Bulletin (PIB) 2012-15. The revised FAC-COR system,
as implemented by the PIB, expanded the requirements for becoming certified from simply
having COR training to having both training and relevant contract-related experience, which, as
defined in the PIB, encompasses both activities experience and appointed experience. The PIB
defines “activities experience” as performing activities such as market research, writing
statements of work, assisting the CO or a COR as a technical monitor, and participating as a
subject matter expert on a technical evaluation team. The PIB also defines “appointed
experience” as “performing as a COR or GTM appointed in writing by a Contracting Officer.”
FAC-COR certifications under either system are valid for 2 years, during which time an
individual must meet the requisite training and experience requirements for recertification. The
amount of training and experience an individual needs to have depends on the level of
FAC-COR certification sought. The training and experience requirements associated with each
of the three FAC-COR certification levels are summarized in Table 1.




8
  According to DOSAR 642.271(b) and Procurement Information Bulletin 2012-15, CORs and GTMs have the same
requirements for FAC-COR certification.

                                               3
                                          UNCLASSIFIED
                                                     UNCLASSIFIED


Table 1. Summary of Department Procurement Information Bulletins Related to
FAC-COR Certification Requirements
                       PIB 2010-20                                                         PIB 2012-15
                       July 29, 2010                                                      August 8, 2012
• Implemented the Government-wide FAC-COR                        • Expanded the FAC-COR certification program from one
  program within the Department.                                   tier to three tiers.
• Mandated that employees have an active FAC-COR                 • Added requirement that individuals should have activities
  certification in order to be eligible for appointment            and/or appointed experience to obtain FAC-COR
  as either a COR or a GTM.                                        certification.
• Established 2-year validity period for FAC-COR                 • Established requirement that COs should make a
  certifications.                                                  determination during the planning phase of an acquisition
                                                                   regarding which FAC-COR certification level an
                                                                   individual must have in order to be delegated as a COR or
                                                                   GTM.
                                                                 • Provided guidelines regarding the types and complexity
                                                                   of contracts appropriate for each certification level.
                                                                 • Retained 2-year validity for FAC-COR certifications.
                                                                 • Established that individuals who hold FAC-COR
                                                                   certifications under the prior one-tier system are
                                                                   automatically regarded as having a Level II certification
                                                                   under the revised system.
                                                                 • Noted that FAC-COR certifications issued under the
                                                                   earlier system would remain valid for the entirety of their
                                                                   2-year validity period before holders would need to apply
                                                                   for recertification.

Certification Requirements:                                      Certification Requirements:
40 hours of training.                                            Level I: 8 hours of training and at least 6 months of
                                                                 U.S. Government experience.
                                                                 --Appropriate for simple orders and contracts at or below
                                                                 the Simplified Acquisition Threshold.*

                                                                 Level II: 40 hours of training and 12 months of
                                                                 COR-related activities and/or appointed experience.
                                                                 --Appropriate for more complex orders or contracts.

                                                                 Level III: 60 hours of training and 24 months of
                                                                 COR-related activities and/or appointed experience.
                                                                 --Appropriate for use on any contract or order supporting a
                                                                 major investment, as defined by Office of Management and
                                                                 Budget Circular A-11.
Sources: PIBs 2010-20 (Jul. 29, 2010) and 2012-15 (Aug. 8, 2012).
* For 2013, the Simplified Acquisition Threshold is defined by the FAR as $150,000, except for acquisitions of supplies or
services that, as determined by the head of the agency, are to be used to support a contingency operation or to facilitate defense
against or recovery from a nuclear, biological, chemical, or radiological attack.




                                                          4
                                                     UNCLASSIFIED
                                       UNCLASSIFIED


Contracts Sampled for Assessing COR and GTM Selection and Positioning

        To assess the Department’s management of its COR and GTM workforce, OIG selected
four high-value contracts for review using a non-statistical sampling method known as
“judgment sampling.” In selecting which contracts OIG would review, auditors sought out
high-value contracts relating to programs managed by a variety of bureaus, obtained suggestions
from each of the four procurement division directors within the Bureau of Administration, Office
of Logistics Management, Office of Acquisitions Management (A/LM/AQM), and sought to
avoid contracts and programs that had been or would soon be the subject of another OIG audit or
inspection. All four contracts were awarded by A/LM/AQM on behalf of another bureau. (A
detailed description of OIG’s selection methodology is in Appendix A.) A brief synopsis of each
contract follows:

        Through the Africa Peacekeeping (AFRICAP) program, the Department, through AF,
provides a range of technical assistance and equipment for African military and peace support
organizations throughout the continent. OIG selected one of the four AFRICAP contracts with
the contractor AECOM Government Services, Inc. (AECOM) (No. SAQMMA09D0082) for
review. AECOM had four active task orders under the AFRICAP program. One task order was
underway in South Sudan; another related to the United Nations peacekeeping mission in
Somalia; and two were active in the Democratic Republic of the Congo, all of which are difficult
countries for executing and overseeing contracted work. According to data provided by
A/LM/AQM, the Department obligated approximately $104 million for AECOM’s activities for
the AFRICAP program during FYs 2010, 2011, and 2012. Oversight of AECOM’s contracted
functions in Africa was conducted by third-party contracted “site coordinators” instead of GTMs.
The site coordinators perform essentially the same functions as GTMs in the countries where the
task orders are being performed.

        Under the INL Air Wing contract (No. SAQMPD05C1103), DynCorp International,
LLC, provided aviation-related operational and training services in the United States at the INL
Air Wing program office at Patrick Air Force Base, Florida, and in various foreign countries,
including Afghanistan, Bolivia, Colombia, Guatemala, Iraq, Pakistan, and Peru. According to
data provided by A/LM/AQM, the Department obligated approximately $1.24 billion for this
contract during FYs 2010, 2011, and 2012.

        After the withdrawal of most of the Department of Defense (DoD) presence in Iraq in
2011, the Department became responsible for providing medical care to U.S. Government
employees and contractors working in Iraq. This responsibility fell to NEA, in coordination with
Embassy Baghdad. To meet these needs, the Department issued the Medical Support Services in
Iraq contract (No. SAQMMA11D0073) to CHS Middle East, LLC. Under the contract, the
contractor operates a number of hospitals and other health care units in Baghdad and elsewhere
in Iraq. According to data provided by A/LM/AQM, during FYs 2010, 2011, and 2012, the
Department obligated approximately $136 million for this contract.

      On September 24, 2012, the Department awarded a contract (No. SAQMMA12C0232) to
BL Harbert International, LLC, for the design and construction of a New Embassy Compound

                                            5
                                       UNCLASSIFIED
                                            UNCLASSIFIED

(NEC) in Jakarta, Indonesia. According to data provided by A/LM/AQM, the contract was
awarded for approximately $302 million and had no further obligations before the end of
FY 2012. The Jakarta NEC contract was a design-build, firm fixed-price contract overseen by
OBO.

                                               Objective
       The objective of this audit was to determine the extent to which the Department’s CORs
and GTMs were selected and positioned to successfully perform their assigned contract
administration and oversight responsibilities.

                                            Audit Results

Finding A. COR and GTM Experience, Positioning, and Oversight Were
Adequate for Three of Four Contracts Reviewed
        For the OBO, NEA, and INL contracts that OIG reviewed, CORs and GTMs were
technically qualified and possessed the COR-related experience required by the FAC-COR
certification program, were positioned to effectively and efficiently conduct their contract
administration duties, and performed adequate oversight per their delegated responsibilities.
These contracts were successfully administered and overseen because bureau officials followed
appropriate policies and procedures as specified in the FAH and PIB 2012-15. The only
exception involved the AF contract for peacekeeping operations in particular African countries.
Details of this contract are presented in Finding B.

COR and GTM Experience

         The FAH 9 states that bureau officials should nominate “technically qualified, responsible,
and certified” individuals to be CORs and GTMs. To ensure that CORs and GTMs are certified,
the Department requires that they possess a FAC-COR certification before appointment, which
requires an applicant to have both training and relevant contract-related experience. The CORs
assigned to the OBO, NEA, and INL contracts were all technically qualified based on their areas
of expertise, and they were all certified at the highest certification level, Level III. This meant
that each COR had obtained at least 60 hours of training and 24 months of previous COR-related
activities and/or appointed experience. Additionally, for the INL Air Wing contract, OIG
selected a random sample of 10 of 55 GTMs and found that all 10 GTMs had current FAC-COR
certifications: 8 at Level II and 2 at Level I. The experience possessed by the CORs and the
GTMs assigned to these three contracts is as discussed in the sections that follow.

          OBO NEC Contract in Jakarta

       For the Jakarta NEC contract, the COR earned an undergraduate degree in civil and
construction engineering, as well as a master’s degree in business administration. In addition, he
9
    14 FAH-2 H-143.2, “COR Appointment Procedures.”

                                                 6
                                            UNCLASSIFIED
                                       UNCLASSIFIED

had over 25 years of construction experience. He was a Foreign Service construction engineer
who had been promoted to FS-01, which is equivalent to a GS-15. He had 18 years of
Government procurement experience and had provided oversight for several multi-million dollar
contracts, including the Beijing, China NEC. Similarly, the Alternate COR had worked as a
COR or Alternate COR since 1985 and had a bachelor’s degree in mechanical engineering. He
had 28 years of experience in Government procurement and was assigned as an Alternate COR
for other NEC contracts, including those for Belgrade, Serbia, and Freetown, Sierra Leone. The
Alternate COR was a Foreign Service construction engineer at FS-02 grade level, which is
equivalent to a GS-14.

       NEA Medical Support Services Contract in Iraq

       For the NEA contract, the COR had highly specialized experience in overseeing medical
services contracts in conflict areas such as Iraq. He was an officer in the U.S. Army who worked
on planning for the transition of medical and other services from the DoD to the Department
before being hired by the Department to oversee the transitioned medical program. He had been
the COR on the NEA contract since November 2011. The Alternate COR was also an officer in
the U.S. Army who worked in Iraq. As an Alternate COR, he worked to maintain the
Department’s basic life support service requirements after 2011.

       INL Air Wing Contract

        The COR for the INL Air Wing contract had 28 years of general aviation experience,
20 years of which were spent specializing in aircraft maintenance. Before being appointed as the
COR in October 2012, he worked as a GTM for the INL Air Wing contract in Colombia for
approximately 6 years. The Alternate COR had 25 years of contract administration and aviation
experience. Regarding the GTMs, the COR stated that the GTMs hired for the INL Air Wing
contract were subject matter experts in aviation. In addition, as previously mentioned, 10 of
55 GTMs that OIG randomly sampled possessed FAC-COR certifications (8 at Level II and 2 at
Level I). Both the COR and the Alternate COR stated that they were responsible for oversight
and administration of the INL Air Wing contract alone, that is, without any responsibilities for
any other contracts. OIG found that the COR and Alternate COR had adequate time to perform
their duties, were adequately reviewing invoices, and were positioned in the correct location to
perform their contract monitoring duties. Their ability to be singularly focused on just one
contract likely helped them provide better outcomes for contract oversight and administration for
this contract.

COR and GTM Positioning

        OIG found that for the OBO, NEA, and INL contracts, CORs or GTMs were generally
placed in the countries within which the contracted work was being performed. Placing CORs or
GTMs at the locations where the contractor performed its work was better than monitoring
contractor performance remotely because it allowed the Government to have direct
communication with contractor staff, to identify unsatisfactory performance quickly, and to have
direct Government observation of the progress and completion of contracted goods and services.

                                            7
                                       UNCLASSIFIED
                                        UNCLASSIFIED


       OBO NEC Contract in Jakarta

        For the Jakarta NEC contract, the COR was physically located at the construction site in
Jakarta, Indonesia, and the Alternate COR was located in Washington, DC. The CO for this
contract stated that monitoring the Jakarta NEC contract was the COR’s only duty. This enabled
the COR to be fully dedicated to ensuring that contractor performance was meeting the contract
terms and conditions. Additionally, OIG found that the Alternate COR’s placement in
Washington was strategic because, as he stated during an interview, it had enabled him to
coordinate all design-related contract activities with OBO headquarters staff. In the event that
the COR was not present in Jakarta because of travel or leave, the Alternate COR relied on
feedback from another OBO employee who worked with the COR in Jakarta to fulfill his
oversight role on the Jakarta contract.

       NEA Medical Support Services Contract in Iraq

        The COR and the Alternate COR for the contract to provide medical support services to
U.S. Government employees and contractors in Iraq were both located in Baghdad. The contract
consisted of a number of task orders that related to the various locations throughout Iraq at which
the contractor operated hospitals and health units. The COR stated that he traveled to the
contractor-operated facilities outside Baghdad three to four times per year but visited the
locations in and around Baghdad more frequently. To ensure that the Government’s needs were
being met in the interim, the COR said that he obtained and reviewed monthly reports, as
required under the contract, from the contractor’s project manager. The Alternate COR fulfilled
the COR’s duties, in addition to his own program management and COR responsibilities for
other contracts, during the COR’s trips out of Iraq during December 2012 and May 2013.

       INL Air Wing Contract

        OIG found that the COR, the Alternate COR, and the GTMs for the INL Air Wing
contract were positioned in multiple locations where the contract was being performed.
Specifically, the COR and the Alternate COR were located at Patrick Air Force Base, Florida,
which was the hub to Latin America, as aircraft associated with the contract frequently flew
between Latin American countries and the Air Force Base. According to information provided
by INL, it had positioned the 55 GTMs for this contract at the locations where the contractor
performed its work under the contract: 1 GTM was located in Washington; 32 were located at
Patrick Air Force Base; 6 were located in Afghanistan; 5 were located in Iraq; 4 each were
located in Colombia and Peru; and 1 each was located in Bolivia, Guatemala, and Pakistan.

COR Oversight

        According to their delegation memoranda, the CORs for the contracts reviewed were
responsible for such oversight tasks as coordinating with the contractor on all technical matters
that may have arisen over the course of contract/task order administration, monitoring and
inspecting the contractor’s progress and performance to ensure compliance with the contract/task
order terms and conditions, receiving deliverables on behalf of the Government, and verifying

                                             8
                                        UNCLASSIFIED
                                        UNCLASSIFIED

the satisfactory delivery of contract/task order items before approving invoices for payment.
Specific examples of how the OBO, NEA, and INL CORs and GTMs from OIG’s sample
executed their oversight responsibilities, including verification of delivered goods and services
before approving invoices for payment on their respective contracts, are discussed in the
paragraphs that follow.

       OBO NEC Contract in Jakarta

        For the Jakarta NEC contract, the contractor provided, and the COR reviewed, an
informal invoice in advance of submitting an official invoice. The COR’s work site was
collocated with that of the contractor at the NEC, enabling the COR to verify that the work being
invoiced had been completed. In the event that the COR did not agree that the contractor’s
invoiced charges were proper or correct, the COR interacted with the contractor to resolve any
discrepancies before the contractor submitted the corrected, official invoice to OBO. When the
COR was on leave, the Alternate COR would review the invoices and complete this process.
Since the Alternate COR was located in Washington, he worked with the Government’s
construction manager, located onsite in Jakarta, to ensure that all items listed on the invoice had
been completed. OIG assessed the process as described by OBO officials for reviewing
contractor invoices, and its implementation appeared adequate. In addition, OIG reviewed the
one contractor invoice that had been submitted on the contract, from January 2013, and found
evidence of proper and timely review.

       NEA Medical Support Services Contract in Iraq

        The COR and the Alternate COR for the NEA contract were both based at the embassy
compound in Baghdad. The COR stated that he performed most of the oversight for the contract
and that the Alternate COR had responsibilities on other contracts and monitored this contract
only while the COR was on leave or otherwise out of the country. The contractor-operated
medical facilities required under the contract were in several locations around Baghdad and in
several other cities elsewhere in Iraq. The COR traveled to these facilities frequently, stating
that his goal was to visit each location at least once every 3 months, but he noted that he had
been able to make it to each site only once every 4 months because of security and other issues
related to traveling in Iraq. The COR, and Alternate COR when necessary, received and
reviewed all of the contractor’s invoices on a monthly basis and interacted with the contractor to
resolve discrepancies. OIG requested and reviewed the monthly contractor invoice from
April 2013 and found that the COR had provided a sufficient review, including getting
discrepancies resolved about employee timesheets, before approving the invoice.

       INL Air Wing Contract

       For INL’s Air Wing contract, the COR used contract management software to review
invoices electronically. He stated that he reviewed each line item on the invoice to ensure that
the contractor’s charges conformed to the contractual requirements. In addition, he said that he
contacted one or more of the GTMs located in the country in which the invoiced work had
occurred to confirm that the invoiced goods and services had actually been provided. To assess

                                             9
                                        UNCLASSIFIED
                                              UNCLASSIFIED

the sufficiency of the COR’s review and approval of invoices, OIG reviewed the invoices
submitted during November 2012. During that month, the COR reviewed the invoices
adequately and solicited necessary information from the GTMs before approving the invoices.
OIG also obtained and reviewed communication between the CO, the COR, and the GTMs for
the same month, November 2012, to assess contract administration and problem resolution. OIG
found that the CO, the COR, and the GTMs frequently communicated regarding INL Air Wing
contract matters to ensure that any problems were quickly addressed. In addition, OIG found
that emails between the COR and the GTMs showed that the COR was performing adequate due
diligence to ensure that the Department received goods and services before approving payment
for the invoiced charges.

Conclusion

        For three of the four contracts reviewed—those under OBO, NEA, and INL—OIG
determined that Department officials had appropriately followed Department policies and
procedures to ensure that CORs and GTMs assigned to those contracts were technically qualified
and met the experience requirements of the FAC-COR certification program, were positioned to
effectively and efficiently conduct their contract administration duties, and performed adequate
oversight per their delegated responsibilities. Therefore, OIG is not making any
recommendations associated with Finding A. (OIG’s discussion of the same issues as applicable
to the fourth contract, the AF AFRICAP contract, is in Finding B.)

Finding B. Challenges Existed With COR Experience, Positioning, and
Oversight Within the Bureau of African Affairs
        For the active task orders reviewed for the one AF contract in its sample, OIG determined
the following:

        •    The two CORs 10 assigned to the four active task orders were technically qualified but
             not required to possess COR-related activities experience and/or have appointed
             experience.
        •    The CORs were not positioned in African countries to oversee contractor
             performance.
        •    The CORs relied, to a significant extent, on the assistance of third-party contractors to
             fulfill their delegated contract oversight responsibilities.

       The two CORs were not required to have or prove their COR-related experience because
they were grandfathered under the prior FAC-COR certification system that required only
40 hours of training versus training plus activities and/or appointed experience. Further, AF
COR’s positioning and oversight were inadequate because AF’s relatively small number of

10
  The AFRICAP contract was awarded with all of the work to be accomplished through the issuance of task orders.
OIG reviewed four task orders under the contract. Two CORs oversaw the task orders, while a third individual was
assigned as the COR for the overarching contract. The third individual retired in May 2013, leaving the two other
CORs and other office staff members to handle all of the staff member’s assigned responsibilities.

                                                   10
                                              UNCLASSIFIED
                                        UNCLASSIFIED

FAC-COR certified employees was insufficient to perform their contract administration
responsibilities without supplementary assistance. As a result, third-party contractor personnel,
both in the field and at the bureau’s offices in Washington, were providing contract oversight,
leaving them in a position to provide advice, opinions, recommendations, analyses, or other work
products that could influence the authority, accountability, and responsibilities of Government
officials. Further, the incomplete attention of experienced and positioned CORs to oversee
contractor performance, rather than third-party contractors, resulted in third-party contractors’
performing inherently governmental functions.

AF COR Experience

        In July 2010, OFPP required all CORs to become certified under the Government-wide
FAC-COR certification program. At that time, to become FAC-COR certified, an applicant was
required to obtain only 40 hours of training. Subsequently, beginning on January 1, 2012,
agencies were required to implement the revised three-tiered FAC-COR certification program,
which required an applicant not only to be trained but also to have activities and/or appointed
experience. These new requirements were implemented within the Department by PIB 2012-15
and became effective on August 8, 2012. The PIB stated that “anyone possessing a current
Department of State FAC-COR certification before this system expansion will be automatically
regarded (“grandfathered”) as having initial FAC-COR Level II certification.” The PIB also
stated that “all certifications are good for two years, after which recertification is required in
order to remain a COR or GTM for any contract or order.”

        OIG found that the two CORs assigned to oversee the two task orders in OIG’s sample
were both hired by AF based on their backgrounds and technical qualifications. One COR who
oversaw three of the four active task orders associated with the AFRICAP contract we reviewed
was a Civil Service Foreign Affairs Officer with a background related to Africa. He stated that
he was selected for his position—a 1-year temporary assignment in the office responsible for the
AFRICAP program—by applying for and then interviewing for the position. The COR for the
fourth active task order was a U.S. Army officer with a military-political background who was
detailed by DoD to the Department on a 3-year tour. Both CORs received their Level II
certification under the prior FAC-COR system. One of the CORs received his certification on
November 3, 2011, and will be required to recertify with an additional 40 hours of training by
November 3, 2013. The other COR received his certification on August 3, 2012—just 5 days
before the new FAC-COR certification requirements took effect—and will be required to
recertify with an additional 40 hours of training by August 3, 2014.

        To obtain a Level II certification under the revised system, the CORs for these task orders
would still have needed the 40 hours of training that they obtained for certification before the
system was revised. In addition to training, though, they would also have needed 12 months of
COR activities and/or appointed experience before being eligible for Level II FAC-COR
certifications. Since both CORs were grandfathered and therefore were not required to account
for any prior COR activities and/or appointed experience at the time they received their
certifications, OIG was unable to determine whether they had the necessary COR-related
experience required under the revised FAC-COR certification system to enable them to

                                             11
                                        UNCLASSIFIED
                                         UNCLASSIFIED

effectively and efficiently monitor and evaluate contractor performance on their assigned
contracts and task orders.

        It is essential for AF to assign CORs who have not only the technical qualifications and
training but also the required COR-related experience, as required by PIB 2012-15, to ensure
proper contract administration and oversight by Government employees. Newly hired
employees who have not had any prior COR-related experience cannot become FAC-COR
certified immediately but instead must assist others with contract administration duties for a year
before being eligible to obtain a FAC-COR certification at the same level as the current CORs
for the task orders reviewed. To shorten the amount of time that must elapse before a newly
hired employee can be assigned as a COR and to ensure seamless continuity of contract
oversight when personnel changes occur, AF should require prior COR-related experience or a
current FAC-COR certification issued by another Government agency if it is anticipated that an
incoming employee or detailee will be responsible for COR duties.

           Recommendation 1. OIG recommends that the Bureau of African Affairs require that
           incoming employees or detailees have prior contract oversight experience or a current
           Contracting Officer’s Representative (COR) certification issued by another Government
           agency when filling positions with individuals expected to perform COR duties.

           Management Response: AF concurred with the recommendation but did not provide
           any information regarding the manner in which it would implement the requirement.

           OIG Reply: OIG considers the recommendation resolved. This recommendation can be
           closed when OIG reviews and accepts information from AF regarding the manner in
           which it would implement the recommendation.

Definition of Inherently Governmental Functions

         Federal Acquisition Regulation (FAR), Subpart 7.5, “Inherently Governmental
Functions,” FAR 37.114, “Special Acquisition Requirements,” and OFPP Policy Letter 11-01
limit the kinds and types of services that contractors may perform on behalf of the Government.
FAR 2.101, “Definitions,” defines an inherently governmental function as “a function that is so
intimately related to the public interest as to mandate performance by Government employees. . .
and . . . includes activities that require either the exercise of discretion in applying Government
authority, or the making of value judgments in making decisions for the Government.”
FAR 7.503 lists examples of functions considered to be inherently governmental or those which
should be treated as such. Included in the list of examples is “administering contracts” 11 and
“determining whether contract costs are reasonable, allocable, and allowable.” 12




11
     FAR 7.503(c)(12)(v).
12
     FAR 7.503(c)(12)(vii).

                                              12
                                         UNCLASSIFIED
                                        UNCLASSIFIED

       In addition, FAR 37.114, “Special Acquisition Requirements,” states the following:

       Contracts for services which require the contractor to provide advice, opinions,
       recommendations, ideas, reports, analyses, or other work products have the
       potential for influencing the authority, accountability, and responsibilities of
       Government officials. These contracts require special management attention to
       ensure that they do not result in performance of inherently governmental
       functions by the contractor and that Government officials properly exercise their
       authority. Agencies must ensure that—(a) A sufficient number of qualified
       Government employees are assigned to oversee contractor activities, especially
       those that involve support of Government policy or decision making, and (b) A
       greater scrutiny and an appropriate enhanced degree of management oversight is
       exercised when contracting for functions that are not inherently governmental but
       closely support the performance of inherently governmental functions.

        Moreover, OFPP Policy Letter 11-01 explains that the actions agencies should take in
situations when they decide to contract for services related to inherently governmental functions:

       [W]hen functions that generally are not considered to be inherently governmental
       approach being in that category because of the nature of the function and the risk
       that performance may impinge on Federal officials’ performance of an inherently
       governmental function, agencies must give special consideration to using Federal
       employees to perform these functions. If contractors are used to perform such
       work, agencies must give special management attention to contractors’ activities
       to guard against their expansion into inherently governmental functions.

CORs Not Positioned To Oversee Contractor Performance in Africa

        DOSAR 642.270, “Contracting Officer’s Representative (COR),” states that COs “may
designate technically qualified personnel as their authorized representatives to assist in the
administration of contracts.” According to the FAH, a COR’s duties may include monitoring
technical progress, receiving deliverables on behalf of the Government, and reviewing and
approving contractor invoices. DOSAR 642.271, “Government Technical Monitor (GTM),”
states that the CO may appoint a GTM to assist the COR in monitoring contractor performance
for several reasons, to include the GTM’s physical proximity to the contractor’s work site.

        However, AF had a relatively small number of FAC-COR certified employees to assign
as CORs and GTMs. The AF manager who supervised the CORs who were responsible for the
AFRICAP contract and task orders we reviewed acknowledged that he found it difficult to
position CORs in Africa or to request the assignment of employees working at embassies in
Africa as GTMs to monitor contractor performance. As a result, AF supplemented its CORs for
the task orders in OIG’s sample with third-party contractors in Africa, referred to as “site
coordinators.” The Washington-based CORs for the AFRICAP program stated that the site
coordinators acted as their “eyes and ears” and were located in the countries where the activities



                                             13
                                        UNCLASSIFIED
                                               UNCLASSIFIED

associated with the contract and task orders occurred: Somalia, South Sudan, and the
Democratic Republic of the Congo.

        DOSAR 642.270 requires the CO to “prepare an appointment memorandum to outline the
scope of the COR’s authority, including duties, responsibilities, and prohibitions.” The
appointment memoranda that document this authority clearly state that the delegations of
authority included in the memorandum are “not subject to re-delegation” by the COR. 13
However, as shown in Table 2, upon review of the COR’s delegated authorities and
responsibilities for two of the task orders 14 in OIG’s sample against the duties and
responsibilities of the site coordinator as documented in the statement of work that applied to the
two task orders, OIG determined that the responsibilities were so similar in nature as to be
inappropriately delegated.

Table 2. COR Delegations Versus Site Coordinator Duties and Responsibilities
                         COR                                                   Site Coordinator
 Coordinate with the contractor on all technical            Provide technical direction to the second-party
 matters that may arise over the course of                  contractor’s project and program managers as may be
 contract/task order administration.                        requested by the second-party contractor. Any and all
                                                            such technical assistance and/or direction is required
                                                            to be determined by the COR and relayed to the SC
                                                            [Site Coordinator].
 Monitor and inspect the contractor’s progress and          Monitor the second party contractor’s performance;
 performance to assure compliance with the                  monitor changes in the technical performance
 contract/task order terms and conditions.                  affecting personnel, the schedule, deliverables, and
                                                            price or costs; and ensure that second-party contractor
                                                            employees are performing all of the work under their
                                                            contract.
 Receive deliverables (supplies, services and/or            To the extent possible, inspect equipment, verify
 reports) on behalf of the Government, and verify           services, and provide reports (no later than 2 days
 satisfactory delivery of contract/task order items and     following the inspection) to the COR; and provide a
 prepare receiving reports.                                 memorandum to the COR recommending the
                                                            acceptance or rejection of equipment, supplies, and/or
                                                            services, or any activity outlined in accordance with
                                                            the terms of the second-party contractor’s contract.
 Approve invoices for payment.                              Assist in verifying the second-party contractor’s
                                                            invoices and vouchers for factual identification of
                                                            authorized expenditures.
 Upon completion of the contract, prepare a                 Provide a memorandum (no later than 3 days
 statement of satisfactory performance or a statement       following the observations) to the COR as to the state
 of any deviations, shortages, or deficiencies.             of completion of the work performed by the second-
                                                            party contractors and grantees.
Sources: COR Delegation Memoranda for Task Order SAQMMA11F4665, Sept. 30, 2012, and Task Order SAQMMA10F4400,
Mar. 18, 2013, and Statement of Work for Site Coordinator for the Democratic Republic of the Congo Military Assistance
Programs.



13
  Only the CO can delegate responsibilities to a COR or a GTM.
14
  The COR delegation memoranda for both task orders contained the same delegated authorities and
responsibilities.

                                                    14
                                               UNCLASSIFIED
                                       UNCLASSIFIED

        While the site coordinator’s statement of work did state that the site coordinator “shall
not be directly involved with any inherently governmental functions or military activities,” the
site coordinators responsibilities appeared to be [at least] “closely associated with” inherently
governmental functions, if not [actually] inherently governmental. Since AF did not position
CORs in Africa and the site coordinators were the only U.S. Government-affiliated individuals
on the ground in Africa involved with reporting to the CORs about the contractors’ performance
or non-performance of the work required of them on the AFRICAP task orders, they were in a
position to influence the CORs’ authorities and responsibilities regarding the AFRICAP
program. Further, the Department did not exercise “a greater scrutiny and an appropriate
enhanced degree of management oversight” when contracting for these site coordinator
functions, as required by FAR 37.114. Therefore, the lack of Department scrutiny and
management oversight of the site coordinators’ performance of COR support activities violates
Federal regulations by allowing contractor performance of inherently Governmental functions.

Third-Party Contractors Conducted Invoice Reviews

        To fulfill another principal COR responsibility, that to review and approve invoices for
payment, AF’s CORs relied on the assistance not only of the site coordinators but also on two
individuals, also contractors, working in AF’s Washington-based office. AF officials described
the invoice review process as follows: When an AFRICAP contractor submitted an invoice, one
of the Washington-based contractors conducted a preliminary review to determine whether the
invoice contained all of the information required under Department regulations, that the invoiced
charges matched any supporting documentation provided, and that the invoiced charges were
applied against the correct period of performance. If the invoice was incomplete, the
Washington-based contractor returned it to the AFRICAP contractor with suggestions for
revision. When an invoice was complete, the Washington-based contractor emailed the invoice
to the site coordinator working in the country where the work occurred for feedback regarding
whether the equipment or training shown on the invoice had actually been delivered. If the site
coordinator had questions about the equipment or training, the site coordinator provided the
questions to the Washington-based contractor, who, in turn, provided those questions to the
AFRICAP contractor for resolution. Once all questions were resolved, the Washington-based
contractor provided the invoice to the COR responsible for the related task order for his or her
review. During interviews, the CORs for these task orders stated that they approved invoices for
payment after resolving any final questions. OIG reviewed one randomly selected contractor
invoice from February 2013. During an interview regarding his review of this invoice, the COR
stated that he had relied on the assistance of one of the third-party contractors before approving
the invoice.

       As with the site coordinators, OIG found that the two third-party contractors assisting the
CORs with invoice reviews were hired because of their particular experience; in this case,
experience with contracting and accounting. According to one COR, the two Washington-based
contractors provided valuable assistance without which he could not review and approve
invoices timely. Although the FAR states that “routine voucher and invoice examination” is not
an inherently governmental function, belonging in the category of “[t]he collection, control, and



                                            15
                                       UNCLASSIFIED
                                            UNCLASSIFIED

disbursement of fees, . . . and other public funds,” 15 the level of involvement of AF’s contractor
personnel in the task of reviewing and approving invoices violated prohibitions against
non-Government employees performing inherently governmental functions. Specifically, one of
the Washington-based contractors who assisted with invoice reviews stated that he routinely
determined whether contract costs were reasonable, allocable, and allowable, which is an
inherently governmental function under the FAR. 16 While the CORs exercised the final approval
over invoices before payment, the degree to which they relied on the Washington-based
contractors to fulfill this important COR function increased the risk that an invoice could be
approved improperly.

Conclusion

        The AF official who supervised the CORs responsible for the AFRICAP task orders
reviewed stated that his office employed contractors to assist the CORs with monitoring
performance and reviewing invoices as a stopgap measure because they were unable to expand
their Government staff sufficiently or quickly in a tight Federal budget environment. In such a
budget environment, however, the need for contract monitoring is all the more important, as
noted in the President’s March 4, 2009, memorandum on Government contracting. 17 The
memorandum states that “it is essential that the Federal Government have the capacity to carry
out robust and thorough management and oversight of its contracts in order to achieve
programmatic goals, avoid significant overcharges, and curb wasteful spending.” To mitigate
the risk and avoid violations of Federal regulations restricting contractors from performing
inherently governmental, critical, or closely related functions, AF officials should stop using
contractors to perform contract administration and oversight tasks. Instead, AF officials should
explore all the hiring or appointment authorities available to them to place CORs or GTMs in the
countries in which the AFRICAP contractors perform their work. Additionally, AF may choose
to explore other funding mechanisms, to include the possible use of program funds to hire
additional U.S. Government employees to perform AF’s inherently governmental, critical, or
closely related functions.

        Recommendation 2. OIG recommends that the Bureau of African Affairs not use
        contractors to perform contract administration and oversight tasks to avoid assigning
        inherently governmental, critical, or closely related functions to contractors, as prohibited
        by the Federal Acquisition Regulation.

        Management Response: AF did not state whether it agreed or disagreed with the
        recommendation but agreed with challenges mentioned in the report. Specifically, CORs
        had less experience than required by current regulations, were not positioned in Africa,
        and were making significant and extensive use of third-party contractors (as site
        coordinators) to fulfill their contract oversight responsibilities. However, while AF
        acknowledged that using contractors in the role of site coordinators was not a best

15
   FAR 7.503(c)(17)(ii).
16
   FAR 7.503(c)(12)(vii).
17
   Presidential Memorandum for the Heads of Executive Departments and Agencies, Subject: “Government
Contracting,” March 4, 2009.

                                                 16
                                            UNCLASSIFIED
                                               UNCLASSIFIED

           practice, it asserted that this practice was not in violation of regulations requiring that
           Government employees carry out inherently governmental functions. AF concluded that
           the site coordinator served in an advisory-only capacity to the COR and assumed none of
           the COR’s inherently governmental functions.

           OIG Reply: OIG considers this recommendation unresolved. During fieldwork, one of
           the AF CORs we interviewed stated that he would be unable to do his job as a COR
           without the assistance of the contractors working as site coordinators in country as well
           as those reviewing invoices in Washington. The FAR definition for an inherently
           governmental function includes “the making of value judgments in making decisions for
           the Government.” The CORs’ reliance almost exclusively on third-party contractors to
           be their in-country “eyes and ears” significantly limits their ability to make truly
           independent decisions regarding a contractor’s completion of the contracted work.
           Further, because of the fact that the CORs are positioned in Washington, DC, and the site
           coordinators are in Africa, the CORs are unable to “provide a greater scrutiny and an
           appropriate enhanced degree of management oversight” of site coordinators who are
           performing “functions that closely support the performance of inherently governmental
           functions,” as required by the FAR. 18 OIG believes that AF’s acceptance of what it
           considers a “less than ideal” practice places the Department at greater risk that the site
           coordinators may influence the authority, accountability, and responsibilities of
           Government officials, which would be a direct violation of the FAR.

           OIG notes that AF’s reliance on contractors to perform inherently governmental, critical,
           or closely related functions extended to drafting its response to our report. The FAR 19
           clearly states that “the drafting of Congressional testimony, responses to Congressional
           correspondence, or agency responses to audit reports from the Inspector General
           [emphasis added], the Government Accountability Office, or other Federal audit entity,”
           is an inherently governmental function. The last page of AF’s comments, which can be
           reviewed in Appendix B, shows that a contractor (as OIG confirmed through the
           Department’s Global Address List via Microsoft Outlook) drafted AF’s response.

           Therefore, OIG requests that AF reconsider its significant and extensive use of
           third-party contractors to enable CORs to fulfill their contract oversight responsibilities
           and provide additional comments to the recommendation in response to the final report.

           Recommendation 3. OIG recommends that the Bureau of African Affairs explore all of
           the hiring, appointment, and funding authorities available to it for employing
           Government employees to perform contract administration and oversight tasks to avoid
           assigning inherently governmental, critical, or closely related functions to contractors, as
           prohibited by the Federal Acquisition Regulation.




18
     FAR 37.114, “Special Acquisition Requirements.”
19
     FAR 7.503(c)(20).

                                                    17
                                               UNCLASSIFIED
                                       UNCLASSIFIED

       Management Response: AF did not state whether it agreed or disagreed with the
       recommendation but noted that it “heretofore had lacked the ability to hire individuals on
       [p]ersonal [s]ervices [c]ontracts who could serve as GTMs overseas” and that “AF [p]osts
       have insufficient staffing to take on GTM responsibilities in[-]house.” AF added that
       “severe space and administrative constraints” would inhibit its ability to hire GTMs and
       noted that the closure or suspension of operations of embassies in some countries,
       including Somalia, inhibits its ability to oversee contracted activities. Also, AF believed
       that Recommendation 2 and Recommendation 3 should be combined and noted that it
       would provide more substantive comments regarding a combined recommendation when
       it received the report in final.

       OIG Reply: OIG considers this recommendation unresolved. During fieldwork, we
       interviewed officials from the Bureau of Near Eastern Affairs who said that they had
       received a legal opinion from the Department’s Office of Legal Adviser that would allow
       it to hire individuals on personal services contracts for overseas requirements. We
       followed up with the Office of Legal Adviser about the Department’s authority for hiring
       PSCs for overseas requirements and were informed that the Department had “general
       authority” to enter into personal services contracts for services abroad. We shared this
       information with AF officials in June 2013 so that they could initiate action with the
       Office of Legal Adviser to explore whether this general authority would extend to AF.
       However, in its response, AF did not indicate what actions, if any, it had taken to explore
       the use of PSCs or other hiring flexibilities in meeting its contract oversight needs.

       Further, OIG determined that combining Recommendations 2 and 3 would be
       inappropriate because they are meant to address two different aspects of a related, yet
       separate, matter. Therefore, OIG requests that AF reconsider its position on this
       recommendation and explore all of the hiring, appointment, and funding authorities
       available to it for employing Government employees to perform contract administration
       and oversight tasks and provide additional comments to the recommendation in response
       to the final report.

Finding C. Department-Wide COR Workforce Management and Planning
Needs Improvement
        OIG found that Department-wide COR workforce management and planning needs
improvement. Specifically, the Department’s COR workforce was not sufficiently tracked and
managed by the current FAC-COR online system, and the Department’s FY 2013 AHCP did not
adequately plan for the Department’s future COR needs. These conditions occurred because the
FAC-COR online system did not function as a true tracking or management tool. Although an
A/OPE official acknowledged this, A/OPE officials still relied on information from that system,
as well as on the projected COR needs from only four of the Department’s 37 bureaus, to capture
the Department’s current COR workforce and anticipated future COR workforce needs. Without
an accurate representation of the Department’s currently active COR workforce and a more
accurate estimate of the number of CORs needed for future contracts, A/OPE will not have the
information it needs for the Department to properly plan to meet its contract administration needs

                                            18
                                       UNCLASSIFIED
                                              UNCLASSIFIED

or for bureaus to address potential COR shortfalls with requests for additional staffing in budget
submissions.

FAC-COR Online System

         The Department uses the FAC-COR online system to process FAC-COR applications by
Government employees and to track the Department’s certified CORs. The online application
process requires FAC-COR certification applicants to enter identifying information (to include
job title, bureau, grade level, contact information, and location); experience information
commensurate with the level of FAC-COR certification sought; and completed training, to
include certificates of completion, commensurate with the level of FAC-COR certification
sought. Once the application is submitted, it is forwarded for supervisory approval and
subsequently for approval by A/OPE. 20 Once the certification is approved, it is valid for 2 years,
after which recertification is required in order to maintain COR status.

        A/OPE stated in the Department’s 2013 AHCP that the FAC-COR online system is a
“management tool,” which allows for the “tracking and management of CORs.” While the
FAC-COR online system is used by A/OPE to track its FAC-COR-certified CORs, OIG
identified shortcomings with the FAC-COR online system as a management tool. Specifically,
OIG determined that the system included employees who were FAC-COR certified but who
were not necessarily performing COR-related duties. An A/OPE official subsequently
acknowledged that the current system does not operate as a true management system, stating that
the system does not contain information as to which contracts or task orders, if any, the
individuals with FAC-COR certifications are assigned.

Department of Defense COR Tracking Tool

       OIG reviewed documentation associated with the DoD’s COR Tracking (CORT) tool,
which is a Web-based capability for the appointment and management of CORs. The CORT tool
allows DoD to track which individuals are eligible for assignment as either a COR or a GTM, to
include collecting COR training certificates, similar to A/OPE’s FAC-COR online system.
However, the CORT tool further implements the following COR management-related functions:

        •    Allows a prospective COR, COR management, and corresponding COs to
             electronically process the nomination and appointment of CORs for one or multiple
             contracts, to include workflows for the nomination process such as email alerts.
        •    Provides contracting personnel and requiring activities and/or COR management the
             means to track and manage COR assignments across multiple contracts DoD wide.
        •    Enables the posting of monthly status reports and includes workflows and status
             reminders for monthly status report due-ins and delinquencies.


20
  If a COR or a GTM applicant is seeking a waiver for FAC-COR certification, the supervisor must approve the
waiver, and if approved, the corresponding CO must also approve the waiver request. If both of these approvals are
received, the waiver request will go to A/OPE for a final decision.

                                                   19
                                              UNCLASSIFIED
                                         UNCLASSIFIED

        During an interview with OIG team members, A/OPE officials stated that they were
investigating the feasibility of expanding the current FAC-COR online system to capture some of
the categories of information specified. Implementing a COR management system, possibly
modeled from the DoD’s CORT tool, would allow A/OPE officials to execute more efficient and
effective tracking and management of CORs.

       Recommendation 4. OIG recommends that the Bureau of Administration, Office of the
       Procurement Executive, enhance or replace the current Federal Acquisition Certification
       for Contracting Officer’s Representatives online system to allow for improved
       management of Contracting Officer’s Representatives and Government Technical
       Monitors. These enhancements could include nomination requests and delegation actions
       for specific contracts and task orders across the Department.

       Management Response: A/OPE concurred with the recommendation, stating that it had
       modified the COR certification system to include a data element for contract assignment.

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that A/OPE has revised
       the system to include the data element relating to contract assignment.

COR Acquisition Workforce Planning

        Bureau of Administration officials stated that A/OPE has the responsibility for
conducting the Department’s acquisition workforce planning efforts, in consultation with other
offices and bureaus. A/OPE has been delegated the responsibility for preparing each year’s
AHCP for submission to the Office of Management and Budget (OMB).

       Since 2010, OMB has required that each civilian agency covered by the Chief Financial
Officers Act develop an AHCP and submit it to OMB by March 31 of each year through 2014. 21
OMB mandates that each agency’s AHCP identify specific strategies and goals for increasing
both the capacity and capability of the agency’s acquisition workforce, including CORs.
Additionally, OMB has required that agencies develop their target acquisition workforce profile;
compare the target profile with their current workforce profile to determine gaps in capacity and
capabilities; and establish recruitment goals, retention targets, and certification goals to address
gaps.

        A/OPE developed and submitted AHCPs to OMB to report the Department’s then-current
COR workforce and its estimated future COR needs in 2011, 2012, and 2013. In its FY 2013
AHCP submission for the Department, provided to OMB in March 2013, A/OPE reported that
the actual number of certified CORs within the Department, as recorded in its FAC-COR online
system as of September 30, 2012, was 1,912. Starting from this figure, A/OPE calculated the
percentage increase in FAC-COR certified personnel from previous years and extrapolated that

21
 OMB Memorandum, Acquisition Workforce Development Strategic Plan for Civilian Agencies−FY 2010-2014,
Oct. 27, 2009.

                                              20
                                         UNCLASSIFIED
                                             UNCLASSIFIED

same percentage increase as to what would likely be needed for the following years. To assess
the reasonableness of the estimate for the Department overall, A/OPE also obtained information
from four Department bureaus—the Bureau of Diplomatic Security, OBO, INL, and NEA—
about upcoming projects as well as those bureaus’ current COR workforce and projected COR
staffing needs. As a result of this process, A/OPE officials determined that the Department
would have to increase its COR workforce to 2,200 in FY 2013 and to 2,351 in FY 2014 and
reported these numbers in their FY 2013 AHCP. An A/OPE official acknowledged, however,
that estimating the number of CORs needed to meet the Department’s anticipated overall
contract oversight and administration requirements was “not an exact science.”

        Despite its intended use as an effective planning document, data in the AHCP did not
accurately depict the Department’s COR workforce for the years designated or its estimated
future needs for three main reasons. First, the personnel listed in the FAC-COR online system
were FAC-COR certified and therefore were eligible for assignment as a COR. However, an
A/OPE official acknowledged that the online system did not indicate who among those eligible
CORs listed in the system were currently assigned as CORs, which was likely a smaller number
than the number of employees who were eligible for assignment as a COR or GTM. For
example, OBO’s submission to A/OPE for the FY 2013 AHCP stated that only 58 of its
FAC-COR certified employees were actively working as CORs while “the balance of 295 OBO
FAC-COR certified individuals are involved in planning, operations and maintenance, and
support-related contracting activities” (that is, duties that are not COR specific to any assigned
contracts or task orders). Second, the total number of FAC-COR certified individuals of 1,912
does not provide an accurate view of the Department’s current position, as some bureaus may
have an excess number of CORs while others may not have enough CORs. However, one
bureau’s CORs (such as OBO’s balance of 295 FAC-COR-certified individuals) cannot be
cross-leveled to support another bureau’s COR shortages because one bureau’s CORs would not
have the requisite technical expertise to understand the other bureau’s mission or contract
requirements. Third, the four bureaus from which A/OPE obtained COR workforce planning
information, while having the largest number of FAC-COR-certified individuals from among the
Department’s 37 bureaus, accounted collectively for less than half (45 percent) of the
Department’s total COR workforce. 22 The growth in the Department’s total number of FAC-
COR-certified personnel over time and the growth in COR needs experienced by only a selection
of the Department’s bureaus may not accurately represent the future growth in the Department’s
contract administration requirements, which could lead to inaccurate estimates for the number of
CORs needed to oversee Department contracts.

        Additionally, a May 2013 OIG audit report 23 found that although the AHCP was useful
for external users to understand procurement-related staffing levels, “it is not sufficient to take
the place of a well-designed staffing plan.” The May 2013 OIG report noted that the AHCP
“focused on actual staff on board and anticipated staff that would be coming on board in the


22
   Of the 2,086 personnel listed in the FAC-COR online system as of June 2013, only 939 were from the four
bureaus from which A/OPE obtained information.
23
   Audit of Department of State Application of the Procurement Fee To Accomplish Key Goals of Procurement
Services (AUD-FM-13-29, May 2013).

                                                  21
                                             UNCLASSIFIED
                                       UNCLASSIFIED

upcoming fiscal year rather than assessing the overall needs of the organization, including the
types of abilities needed to ensure the procurement services provided were sufficient.”

        Without an accurate estimate of the number of CORs needed to handle administration
and oversight tasks for future contracts for all of the Department’s bureaus, the Department
cannot adequately plan to meet its future contract administration responsibilities. Also, without
better integration of those anticipated needs with Department budget requests for training and
hiring, as required by OMB, it is likely that those needs will not be adequately met.

       Recommendation 5. OIG recommends that the Bureau of Administration, Office of the
       Procurement Executive, implement a more robust Contracting Officer Representative
       (COR) workforce planning effort by identifying the appropriate number of CORs and
       Government Technical Monitors needed by each bureau in the annual Acquisition
       Human Capital Plan to ensure an accurate representation of COR workforce needs for the
       management, tracking, and budgeting purposes.

       Management Response: A/OPE concurred with the recommendation, stating that it
       would request information from all bureaus when preparing its Acquisition Workforce
       Human Capital Plan.

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that A/OPE has requested
       information from all bureaus regarding their COR workforce and projected COR staffing
       needs.

Finding D. Department COR-Specific Policies Need Implementation
Guidance
        OIG found that bureau officials did not always provide COR and GTM nomination
memoranda to COs; that COs were unaware of the manner in which they should vet COR and
GTM nominees; that responsibilities were included in the performance evaluation factors for
some, but not all, of the employees executing COR and GTM duties; and that supervisors of
CORs and GTMs were unaware of the manner in which they should solicit CO input regarding
affected employees’ performance of contract administration responsibilities. These conditions
occurred for the following reasons: (1) A/OPE did not provide guidance for what should be
included in COR and GTM nomination memoranda or provide implementation guidance for the
review and approval of COR and GTM nominees, (2) A/OPE and the Director General of the
Foreign Service and Director of Human Resources (DGHR) did not develop a policy for how
CORs and GTMs who were other than Civil Service or Foreign Service would be evaluated,
(3) A/OPE and DGHR did not have a means to determine whether supervisors had included
contract administration responsibilities in affected employees’ performance evaluation factors as
required, and (4) A/OPE and DGHR did not specify procedures for supervisors of CORs and
GTMs to solicit and include CO input regarding employee performance of their contract
administration responsibilities. Because of these shortfalls, COs could inadvertently delegate
contract administration duties to individuals who, while FAC-COR certified, did not have the

                                            22
                                       UNCLASSIFIED
                                          UNCLASSIFIED

technical qualifications or responsibility to adequately oversee contractor performance.
Moreover, if CORs and GTMs are not held accountable for successful fulfillment of their
assigned contract administration responsibilities through annual reviews, with CO input
regarding their effectiveness in performing these duties, individuals assigned as CORs and
GTMs may not perform these duties in a timely and efficient manner. Either circumstance could
lead to poor contracting outcomes and misspent funds.

Nominating and Vetting CORs and GTMs

        The FAH 24 requires that bureau officials nominate, in writing, “technically qualified,
responsible, and certified” individuals to be CORs and GTMs. The DOSAR 25 also states that the
“COR shall be named in the procurement request submitted to initiate the procurement action
and shall be accompanied by a nomination using” a nomination memorandum. However,
officials in two of the four bureaus responsible for monitoring the contracts and task orders
reviewed did not provide COs with nomination memoranda when nominating CORs and GTMs.

        Further, the FAH 26 states that a CO should appoint the COR as soon as a requirement is
initiated, if possible. In addition, PIB 2012-15 states, “When appointing CORs or GTMs,
Contracting Officers (COs) must choose the appropriate level of certification during the
acquisition planning phase of any given procurement.” 27 To assist COs with this determination,
the PIB contained an appendix describing the FAC-COR certification levels and the types of
contracts that a COR or a GTM who has been certified at a particular level should be assigned.
However, A/LM/AQM COs stated that whether or not they received nomination memoranda or
packages, they were not aware of what, if anything, they were supposed to do with the
information they were provided to ensure a nominee’s technical competence and were not aware
of how to apply information in the PIB appendix to appropriately determine what level of
certification a COR should have. The COs stated that prior to assigning a COR or a GTM, they
checked A/OPE’s FAC-COR online system to determine whether the nominee had an active
FAC-COR certification but that that action was the extent of their vetting procedures. COs
acknowledged that they relied on bureau officials to select and nominate appropriate individuals
to be CORs, stating that in general, they would not feel comfortable rejecting a bureau’s COR or
GTM nominee unless the nominee did not have the appropriate level of FAC-COR certification
required for the contract.

       Information about the COR and GTM nomination and vetting processes for the four
contracts reviewed are explained in the sections that follow.




24
   14 FAH-2 H-143.2, “COR Appointment Procedures.”
25
   DOSAR 642.270, “Contracting Officer’s Representative (COR).”
26
   14 FAH-2 H-142, “Responsibilities of the Contracting Officer’s Representative (COR).”
27
   PIB 2015-15 Reference Document I, “Frequently Asked Questions (FAQs) Regarding COR and GTM
Requirements.”

                                               23
                                          UNCLASSIFIED
                                              UNCLASSIFIED


        OBO NEC Contract in Jakarta

        OBO officials provided the A/LM/AQM CO responsible for the Jakarta NEC contract
with nomination memoranda outlining the background and experience of the COR and Alternate
COR nominees, both of whom had Level III FAC-COR certifications. The nomination package
also included a summary of each nominee’s assignment and training history, all of which
provided the CO with the information needed to make an informed decision about COR
delegation. According to OBO officials, OBO selected project leaders through a competitive
bidding process 28 used by employees working in the OBO-specific Foreign Service construction
engineering skill code. Once selected for their assignments, OBO nominated these employees
for appointment as CORs and Alternate CORs for the projects to which they were assigned.
While OBO officials for this contract provided nomination memoranda and additional supporting
materials regarding COR and Alternate COR nominee backgrounds, an A/LM/AQM official
stated that she simply approved the nominees after checking the FAC-COR online system to
verify that the nominees’ were FAC-COR certified, regardless of their certification levels and
technical qualifications noted in the nomination package.

        NEA Medical Support Services Contract in Iraq

          A/LM/AQM officials stated that they did not receive COR nomination memoranda from
the NEA officials responsible for this program. Despite the lack of formal nomination materials,
AQM officials appointed both of the individuals that NEA officials nominated for COR and
Alternate COR assignments. With respect to selection, according to documents provided by
NEA officials, the COR and the Alternate COR were both hired by the Department specifically
to fill the positions they occupied, with primary responsibilities for overseeing contracts in Iraq,
under a legal provision that allowed them to hire temporary employees for short-term
requirements. 29 However, without this knowledge, A/LM/AQM COs would not have had the
information needed to determine whether the individuals nominated to conduct contract
administration and oversight were technically competent.

        INL Air Wing Contract

        INL officials sent brief memoranda to the A/LM/AQM CO responsible for the INL Air
Wing contract to nominate the contract oversight personnel for that contract. The memoranda
included the names and positions of the nominees but did not contain any information regarding
the nominees’ backgrounds, training, or technical expertise. According to INL officials, the
COR and the Alternate COR were Civil Service employees who were selected for their roles
primarily because of their aviation experience. The COR stated that he had worked as a GTM on
this contract for a number of years in Colombia before being hired as a Civil Service employee.

28
   OBO’s CORs are Foreign Service employees who submit bids for specific assignments and are selected for these
assignments based on their background and qualifications.
29
   The temporary employees were “3161s,” which, according to Title 5, Section 3161, of the U.S. Code, are persons
appointed to positions of employment in a temporary organization in such numbers and with such skills as are
necessary for the performance of the functions required of a temporary organization, typically not to exceed three
years.

                                                   24
                                              UNCLASSIFIED
                                              UNCLASSIFIED

As for the GTMs, INL has the authority to hire individuals under personal services contracts
(PSC) 30 and has used that authority to hire GTMs to work at the program office in Florida and at
the overseas locations where the contractor performs work under this contract. One INL official
stated that, for the INL Air Wing contract, they hire PSCs as GTMs specifically because of their
expertise. Another INL official noted that GTMs, whether hired as Civil Service employees,
PSCs, or in some other capacity, are given duties that relate only to oversight of the Air Wing
task orders being performed at the location to which they are assigned.

        Again, the CO stated that for the INL Air Wing contract, he simply checked the
FAC-COR online system to ensure that the nominees had the appropriate certifications. During
his check, the CO stated that he found that some GTM nominees had not yet received the
appropriate level of FAC-COR certification from A/OPE and that in those instances, he declined
to delegate GTM responsibilities to the nominee until he or she had obtained a FAC-COR
certification at the appropriate level. Regardless, the CO did not have the information needed to
determine, via nomination memoranda, whether technically qualified individuals were
nominated.

        AF AFRICAP Contract

       AF officials did not use memoranda to nominate the CORs for the AFRICAP task orders
reviewed. Instead, according to an A/LM/AQM official, they included the name of the
individual they were nominating to be the COR in the documents they provided to the
A/LM/AQM CO when they requested that a new task order be issued. AF selected those
individuals to be CORs because their positions within AF required that they monitor and
coordinate a portfolio of ongoing security-related activities in a specific region of Sub-Saharan
Africa. One COR was responsible for monitoring activities in Central Africa, including South
Sudan and the Democratic Republic of the Congo, where three of the four task orders reviewed
were executed. The fourth task order related to providing equipment and training to forces
operating in Somalia, and this task order fell under the purview of the second COR, who had
responsibility for East Africa.

       As mentioned for the NEA and INL contracts, the CO for the AF task orders was not
informed through an appropriate nomination process as to whether the nominated CORs were
technically qualified, responsible, and certified to effectively and efficiently execute their COR
responsibilities. Further, the CO did not make a determination as to whether having Level II
CORs was the appropriate certification level to execute proper oversight of the AFRICAP
contract task orders.

        Recommendation 6. OIG recommends that the Bureau of Administration, Office of the
        Procurement Executive, develop and issue guidance specifying the types of information
        that bureau officials should document in Contracting Officer’s Representative and
        Government Technical Monitor nomination memoranda regarding a nominee’s training,
30
  A PSC is an employer-employee relationship contract created between the Government and the contractor. For
purposes of this definition, the PSC is used as an employment mechanism for individuals abroad under Section 2(c)
of the State Department Basic Authorities Act of 1956 (22 U.S.C. § 2669(c)).

                                                   25
                                              UNCLASSIFIED
                                UNCLASSIFIED

experience, and technical qualifications to ensure implementation of Department of State
Acquisition Regulations and Foreign Affairs Handbook nomination requirements.

Management Response: A/OPE did not state whether it agreed or disagreed with the
recommendation but instead requested clarification on the recommendation. A/OPE
commented that it has a sample nomination memorandum [available on A/OPE’s Intranet
site] that requires the nominating office to detail training, technical qualifications and
experience, including dates and types of work performed by the COR. A/OPE further
commented that the information in the sample nomination memorandum is the same as
that cited in the report for OBO nominations, which A/OPE noted auditors had found
sufficient for the contracting officer to approve the COR’s appointment.

OIG Reply: OIG considers this recommendation unresolved. We agree with A/OPE
that OBO had the most complete and useful nomination memorandum compared to those
memoranda reviewed from the other three bureaus included in our review: INL, AF, and
NEA. However, the officials we interviewed at those three bureaus were unaware of the
details that they needed to provide to the A/LM/AQM COs to document a nominee’s
training, qualifications, and experience. Additionally, upon further review of the sample
COR nomination format, OIG believes that it is not descriptive in nature and does not
provide the detailed guidance that a program official would need to ensure that they are
providing the CO with pertinent information so that one can make an informed decision
about the nomination and appointment of a COR. As a result, OIG requests that A/OPE
reconsider its position on this recommendation to develop and issue guidance specifying
the types of information that bureau officials should document in COR and GTM
nomination memoranda regarding a nominee’s training, experience, and technical
qualifications, and provide additional comments to the recommendation in response to
the final report.

Recommendation 7. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, provide periodic training to Contracting Officers that covers how
they should make a determination of the appropriate level of certification required for
particular contracts during the planning phase of acquisitions, and also how they should
document those determinations to ensure implementation of Procurement Information
Bulletin 2012-15.

Management Response: A/OPE disagreed with the draft recommendation, stating that it
did not want to substitute additional criteria for CO judgment, but instead wanted COs to
be provided with latitude to determine an appropriate level of certification. A/OPE
further stated that it would work with A/LM/AQM to ensure that COs understood the
current criteria for how to make a determination on the appropriate level of COR
certification required for contracts.

OIG Reply: OIG considered A/OPE’s comments and revised Recommendation 7 to
request that A/OPE provide periodic training to COs for how certification level
determinations should be made and documented, rather than developing and issuing

                                     26
                                UNCLASSIFIED
                                          UNCLASSIFIED

           policy. OIG requests that A/OPE provide additional comments to the final report
           indicating whether it concurs or does not concur with the revised recommendation, after
           which OIG will determine whether the recommendation is resolved or unresolved.

COR and GTM Performance Evaluations

        A/OPE and DGHR jointly issued Department Notices in January and April 2011
regarding the inclusion of COR and GTM responsibilities in the performance evaluation factors
for affected employees. The January 2011 Department Notice said that supervisors with
employees who function as CORs or GTMs should include such functions in the employee’s
performance evaluation factors. The April 2011 Department Notice reminded supervisors of the
January 2011 Department Notice and provided specific language that supervisors could use when
inserting COR and GTM responsibilities into an affected employee’s rating elements.

         The bureaus associated with the four contracts reviewed used a wide range of hiring
authorities available to them in selecting individuals to serve as CORs and GTMs. The CORs
and GTMs for the contracts reviewed were Civil Service employees, Foreign Service specialists,
temporary Government employees hired under Section 3161 authority, 31 a military officer on
detail from the DoD, and PSCs. While the relevant Department Notices stated that supervisors
of Civil Service and Foreign Service employees should insert COR and GTM responsibilities
into affected employees’ performance standards, neither Department Notice addressed the
manner in which employees on detail from other departments, other temporary employees, or
PSCs should be held accountable for any contract administration responsibilities they are
assigned.

        Further, regardless of the manner in which a COR or GTM was hired, neither A/OPE nor
DGHR had any means to follow up on the 2011 Department Notices to determine the extent of
policy compliance Department-wide. During an interview, an A/OPE official stated that the
FAC-COR online system did not track whether a FAC-COR certified individual was actually
assigned as a COR or GTM. With respect to DGHR, OIG queried the bureau’s Executive
Director about whether they had any information available regarding the number of Department
employees who were assigned as either a COR or GTM. He replied simply that their “system
does not have the ability to generate the information [OIG] requested.” Without the capability to
track compliance, it is difficult for either A/OPE or DGHR to gauge the effectiveness of these
Department Notices or the extent of implementation of the policies reflected by the notices.

       The COR performance evaluation factors OIG found for the CORs and the GTMs
assigned to each of the four contracts reviewed are as summarized below.

           OBO NEC Contract in Jakarta

       For the contract to construct a new U.S. Embassy in Jakarta, Indonesia, both the COR
and the Alternate COR were Foreign Service specialists in the OBO-managed construction

31
     5 U.S.C. § 3161.

                                               27
                                          UNCLASSIFIED
                                       UNCLASSIFIED

engineering skill code. All of the responsibilities contained in the COR’s work elements related
to COR work. Although many of the work elements did not include the specific language from
the April 2011 Department Notice, the work elements did address COR-specific duties. For
example, the elements stated that the COR must do all of the following:
       • Develop and manage a quality assurance program to ensure that all construction work
           is performed in accordance with the contract.
       • Ensure that contractors develop and maintain project schedules for completion.
       • Develop and implement procedures for maintaining internal control of Government
           funds.

       NEA Medical Support Services Contract in Iraq

         For the contract to provide medical support services to U.S. Government employees and
contractors in Iraq, the COR and the Alternate COR were both Civil Service employees who had
been hired to perform contract administration duties under the Department’s Section 3161
temporary hiring authority. According to NEA officials, Section 3161 employees were not
required to have formal annual reviews similar to those of regular Civil Service employees.
However, because the contracts for Section 3161 employees were renewed annually, NEA had to
decide whether to extend the employees’ employment for another term. Therefore, even though
there was not specific guidance as to how Section 3161 temporary hires should be held
accountable for any contract administration responsibilities they performed, they were in essence
evaluated, as a lack of adequate performance of their contract administration duties would lead to
their terms of employment not being renewed.

       INL Air Wing Contract

        For the contract to provide air wing support services for INL, the COR and the Alternate
COR were Civil Service employees who had their COR-specific duties included in their
performance evaluation elements. For example, INL officials, in a July 2, 2013, email to OIG,
stated that one such COR-specific performance evaluation element for 2013 was as follows:

       Develops and maintains systems to evaluate and monitor contractual performance
       related to delivery of contract items, efficient and satisfactory performance of
       work, effective use of Government-furnished property, scheduling, and usage of
       facilities, compliance with terms and conditions of the contract, and amount of
       progress or advance payments.

       The Alternate COR stated that the GTMs assigned to the INL Air Wing contract were
PSCs. He further stated that even though there was not a specific requirement to evaluate PSCs,
he evaluated the GTMs by the standards listed within their contracts’ statements of work.
Another INL official noted that the statements of work were specific to performing GTM
duties—meaning that any substandard annual rating or poor interim review could result in the
GTMs’ contracts being terminated or not being renewed.




                                            28
                                       UNCLASSIFIED
                                      UNCLASSIFIED


       AF AFRICAP Contract

        For the contract to support peacekeeping operations in Africa, one COR was a Civil
Service employee on a 1-year detail from another office to fill a temporary vacancy created
while the prior COR was on a leave of absence. The prior COR’s rating elements included
specific COR-related duties, including “review[ing] contracts on a weekly basis to ensure that
contractors meet [the] scope of work commitments” and “review[ing] and approv[ing] contractor
invoices” within a week of receipt. The other COR was a U.S. Army officer on a 3-year
assignment from the DoD. He stated that his annual review and rating elements were mandated
by the manner in which his position was structured by virtue of the agreement between the DoD
and the Department. He forwarded an excerpt from his position description, which required that
he “[m]anage the Department’s security sector reform program in [E]ast Africa and an annual
peacekeeping operations budget of more than $51 million.” However, his performance
evaluation factors did not specifically mention his contract administration responsibilities.

CO Input for Annual COR Performance Evaluations

       In addition to requiring that supervisors of CORs and GTMs include contract
administration responsibilities in performance evaluation factors, the January 2011 Department
Notice also stated that supervisors of both Civil Service and Foreign Service employees “should
seek input from the CO who appointed the COR or GTM on the adequacy of COR or GTM work
performance.”

        During interviews with supervisors of CORs, OIG learned that each of the Civil Service
and Foreign Service employees assigned as CORs on the contracts and task orders OIG reviewed
received annual performance reviews that included discussions of their contract administration
responsibilities. However, these same supervisors stated that they had not sought input from
COs on COR and GTM performance and, at most, had only received “informal feedback” from
COs during interactions throughout the year. The COs for the contracts and task orders reviewed
stated that CO input into COR and GTM performance evaluations would be beneficial.

        The supervisors of the employees in other employment categories, such as temporary
employees and the PSCs, stated that some, but not all, of these employees received annual
reviews, which may have included a review of contract performance as part of a contract renewal
process. But, similar to Civil Service and Foreign Service employees, none of the supervisors of
the temporary employees or PSCs said that they had received written feedback from COs on
their employees’ contract administration performance during the annual review process.

Conclusion

        The inconsistent manner in which the Department Notices related to evaluating the
performance of CORs and GTMs were implemented occurred for three reasons. First, neither
A/OPE nor DGHR, both of which co-authored the Department Notices, had the means to follow
up on whether the requirements in the Department Notices were implemented. Second, neither
of the relevant Department Notices addressed the manner in which the CORs and the GTMs who

                                           29
                                      UNCLASSIFIED
                                       UNCLASSIFIED

were not Civil Service and Foreign Service employees, such as if they were PSCs, should be held
accountable for the completion of their assigned contract administration duties. Third, neither of
the relevant Department Notices addressed the manner in which supervisors of affected
employees should obtain feedback from COs regarding the employees’ performance of assigned
COR or GTM responsibilities. The Department Notices were meant to enhance accountability
among employees performing critical contract administration functions, yet incomplete or
uncertain implementation made their policy guidance significantly less effective.

       Recommendation 8. OIG recommends that the Bureau of Administration, Office of the
       Procurement Executive, in coordination with the Director General of the Foreign Service
       and Director of Human Resources, develop a method of tracking the requirement for
       Contracting Officer’s Representative-specific responsibilities to be included in job
       performance elements of affected employees to ensure implementation of the Department
       Notices.

       Management Response: A/OPE agreed with the recommendation, stating that it
       recognized the need to continue to evaluate compliance with the requirement, and
       planned to select a judgmental sample of CORs on a periodic basis to validate that
       relevant work elements are included in performance appraisals.

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing how A/OPE periodically
       validated that relevant work elements were included in performance appraisals of a
       judgmental sample of CORs.

       Recommendation 9. OIG recommends that the Bureau of Administration, Office of the
       Procurement Executive, in coordination with the Director General of the Foreign Service
       and Director of Human Resources, establish guidelines to standardize the manner in
       which supervisors should hold individuals other than Civil Service or Foreign Service
       employees assigned as Contracting Officer’s Representatives and Government Technical
       Monitors accountable for their performance in those positions.

       Management Response: A/OPE did not state whether it agreed or disagreed with the
       recommendation but requested that any such recommendations for changing the way any
       CORs who are not members of the Civil Service or Foreign Service be evaluated should
       be directed to the Director General of the Foreign Service and Director of Human
       Resources (DGHR).

       OIG Reply: OIG considers this recommendation unresolved, and did not revise the
       recommendation per A/OPE’s request. As noted in the report, this recommendation is
       meant to address requirements contained in Department Notices that were jointly issued
       by A/OPE and DGHR to mandate performance evaluations of COR-specific duties for
       Civil Service or Foreign Service personnel but which do not address other personnel
       categories such as detailees from other agencies, PSCs, or employees hired under 3161
       authority. We request that A/OPE reconsider its position on this recommendation to

                                            30
                                       UNCLASSIFIED
                               UNCLASSIFIED

coordinate with DGHR in mandating that performance evaluations for such personnel
categories also include COR-specific duties and provide additional comments to the
recommendation in response to the final report.

Recommendation 10. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, in coordination with the Director General of the Foreign Service
and Director of Human Resources, establish guidelines to standardize the manner in
which supervisors of Contracting Officer’s Representatives and Government Technical
Monitors obtain feedback from Contracting Officers regarding employee performance
and incorporate this feedback into performance evaluations for affected employees.

Management Response: A/OPE did not state whether it agreed or disagreed with the
recommendation but instead stated that it would add a requirement for supervisors of
employees with COR work commitments to obtain feedback via email or telephone
discussion from COs when drafting performance appraisals. A/OPE further noted that it
would advise bureaus using resources such as PSCs to also obtain CO feedback.

OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation validating that A/OPE has
communicated and/or documented a requirement for supervisors of employees with COR
work commitments to obtain feedback from COs when drafting performance appraisals
and also that it has advised bureaus using resources such as PSCs to obtain CO feedback.




                                    31
                               UNCLASSIFIED
                                        UNCLASSIFIED


                                 List of Recommendations

Recommendation 1. OIG recommends that the Bureau of African Affairs require that incoming
employees or detailees have prior contract oversight experience or a current Contracting
Officer’s Representative (COR) certification issued by another Government agency when filling
positions with individuals expected to perform COR duties.

Recommendation 2. OIG recommends that the Bureau of African Affairs not use contractors to
perform contract administration and oversight tasks to avoid assigning inherently governmental,
critical, or closely related functions to contractors, as prohibited by the Federal Acquisition
Regulation.

Recommendation 3. OIG recommends that the Bureau of African Affairs explore all of the
hiring, appointment, and funding authorities available to it for employing Government
employees to perform contract administration and oversight tasks to avoid assigning inherently
governmental, critical, or closely related functions to contractors, as prohibited by the Federal
Acquisition Regulation.

Recommendation 4. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, enhance or replace the current Federal Acquisition Certification for
Contracting Officer’s Representatives online system to allow for improved management of
Contracting Officer’s Representatives and Government Technical Monitors. These
enhancements could include nomination requests and delegation actions for specific contracts
and task orders across the Department.

Recommendation 5. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, implement a more robust Contracting Officer Representative (COR)
workforce planning effort by identifying the appropriate number of CORs and Government
Technical Monitors needed by each bureau in the annual Acquisition Human Capital Plan to
ensure an accurate representation of COR workforce needs for the management, tracking, and
budgeting purposes.

Recommendation 6. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, develop and issue guidance specifying the types of information that
bureau officials should document in Contracting Officer’s Representative and Government
Technical Monitor nomination memoranda regarding a nominee’s training, experience, and
technical qualifications to ensure implementation of Department of State Acquisition
Regulations and Foreign Affairs Handbook nomination requirements.

Recommendation 7. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, provide periodic training to Contracting Officers that covers how they
should make a determination of the appropriate level of certification required for particular
contracts during the planning phase of acquisitions, and also how they should document those
determinations to ensure implementation of Procurement Information Bulletin 2012-15.


                                             32
                                        UNCLASSIFIED
                                       UNCLASSIFIED

Recommendation 8. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, in coordination with the Director General of the Foreign Service and
Director of Human Resources, develop a method of tracking the requirement for Contracting
Officer’s Representative-specific responsibilities to be included in job performance elements of
affected employees to ensure implementation of the Department Notices.

Recommendation 9. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, in coordination with the Director General of the Foreign Service and
Director of Human Resources, establish guidelines to standardize the manner in which
supervisors should hold individuals other than Civil Service or Foreign Service employees
assigned as Contracting Officer’s Representatives and Government Technical Monitors
accountable for their performance in those positions.

Recommendation 10. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, in coordination with the Director General of the Foreign Service and
Director of Human Resources, establish guidelines to standardize the manner in which
supervisors of Contracting Officer’s Representatives and Government Technical Monitors obtain
feedback from Contracting Officers regarding employee performance and incorporate this
feedback into performance evaluations for affected employees.




                                            33
                                       UNCLASSIFIED
                                       UNCLASSIFIED


                                                                                     Appendix A
                                  Scope and Methodology

       The Office of Inspector General (OIG), Office of Audits, performed fieldwork from
February to July 2013 at the Department of State (Department) Bureau of Administration,
Bureau of African Affairs, Bureau of International Narcotics and Law Enforcement Affairs,
Bureau of Near Eastern Affairs, and Bureau of Overseas Buildings Operations.

        OIG conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that OIG plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and conclusions
based on the audit objective. OIG believes that the evidence obtained provides a reasonable
basis for the findings and conclusions based on the audit objective.

         OIG interviewed Contracting Officer’s Representatives (COR), Contracting Officers
(CO), and bureau officials and reviewed documentation to support statements made in
interviews, including Federal Acquisition Certification for Contracting Officer’s Representatives
(FAC-COR) certificates, COR and Government Technical Monitor (GTM) nomination and
delegation memoranda, documents contained in the contract and task order files, invoices, site
visit or contractor evaluation reports, and other documents that provided evidence of COR and
GTM oversight.

       As part of its audit methodology, OIG interviewed officials from the Bureau of
Administration, Office of the Procurement Executive (A/OPE), and obtained Department-wide
information from A/OPE and other bureaus to discern the extent to which these offices had
accomplished any Department-wide efforts to improve the Department’s management of its
COR and GTM workforce or plan for anticipated staffing needs.

Work Related to Internal Controls

       OIG performed steps to assess the adequacy of internal controls related to the areas
audited. For example, OIG reviewed the COR nomination process for the four contracts in its
sample to assess whether the Department appropriately selected CORs and GTMs to conduct
contract administration and oversight. OIG also reviewed Department guidance, policies and
procedures, and related controls to ensure that such guidance and policies and procedures were
being implemented and followed by bureau officials, CORs, and COs. Significant deficiencies
OIG identified are presented in the audit report.

Prior OIG Reports

        Between 2009 and 2011, OIG issued four audit and inspection reports related to OIG’s
audit objective to determine the extent to which the Department’s CORs and GTMs were
selected and positioned to successfully perform their assigned contract administration and
oversight responsibilities. All four reports discussed COR-related deficiencies. Specifically, two


                                            34
                                       UNCLASSIFIED
                                             UNCLASSIFIED

of those reports 1 found that CORs had approved contractor invoices for payment without
adequate review or no review. The third report 2 found various deficiencies in COR and GTM
oversight and monitoring. The fourth report 3 found that there were not enough CORs within the
Bureau of African Affairs, Office of Regional and Security Affairs, to effectively administer a
particular program’s contracts. To address that deficiency, OIG recommended that AF hire at
least five additional full-time direct-hire employees with contracting skills to serve as program
managers and CORs in the Office of Regional and Security Affairs.

Use of Computer-Processed Data

       OIG used computer-processed data to select its sample of four large contracts but did not
use computer-processed data to evaluate COR and GTM selection and positioning.

Detailed Sampling Methodology

        OIG selected four contracts for review using a non-statistical sampling method known as
“judgment sampling.” Because this method uses discretionary criteria to effect sample selection,
OIG was able to use information gathered during its preliminary work to aid in making informed
selections. In selecting which contracts to review, OIG sought high-value contracts relating to
programs managed by a variety of bureaus; obtained suggestions from each of the four
procurement division directors from the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management (A/LM/AQM); and sought to avoid contracts
and programs that had been or would soon be subject to review by other OIG audit teams.

        OIG decided initially to limit its sample selection to those contracts awarded by
A/LM/AQM. Most domestic offices have limited procurement authority and rely on
A/LM/AQM for the majority of their procurement support, as do the Department’s overseas
posts, which generally may only award contracts valued at or below $250,000. A/LM/AQM’s
four major acquisition divisions—Facilities Design and Construction, Worldwide Operations,
International Programs, and Information Technology—were organized to serve various regional
and functional bureaus within the Department. Organizing OIG’s selection in this way allowed
OIG to achieve a measure of diversity in its sample selection.

        OIG requested and received information from A/LM/AQM regarding the 10 contracts
under the purview each of AQM’s four acquisition divisions that had the highest amount of
funding obligated during FYs 2010-2012. Using this information, in consultation with the
directors of each of the acquisition divisions, we judgmentally selected one contract from each


1
  DoD and DOS Need Better Procedures to Monitor and Expend DoD Funds for the Afghan National Police
Training Program (DOS Report AUD/CG-11-30, July 2011) and Performance Evaluation of PAE Operations and
Maintenance Support for the Bureau of International Narcotics and Law Enforcement Affairs’ Counternarcotics
Compounds in Afghanistan (MERO-I-11-02, Feb. 2011).
2
  Audit of Allegations Pertaining to Contract With DynCorp International for the Security Sector Transformation
Project in South Sudan, Africa (AUD/SI-10-23, Aug. 2010)
3
  Inspection of the Bureau of African Affairs (ISP-I-09-63, Aug. 2009)

                                                  35
                                             UNCLASSIFIED
                                         UNCLASSIFIED

division for review. The 40 contracts from which we made our selections had total obligations,
during FYs 2010–2012, of $9.45 billion.

        A prime consideration in selecting the four contracts for review was their relatively high
value, in comparison to other contracts, for each of A/LM/AQM’s four major acquisition
divisions. Selecting high-value contracts was important because the potential effects of
inadequate contract administration—wasted taxpayer funds and substandard program
outcomes—were commensurately larger with such contracts.

        With the considerations cited in mind, the audit team also obtained input from the
directors of A/LM/AQM’s four major acquisition divisions. During interviews with these
individuals, the audit team sought to obtain information about contracts that had had contract
administration deficiencies for which CORs were responsible or at least had the potential to be
subjected to such deficiencies because of the contracts’ size, complexity, and/or places of
performance. Such contracts would represent higher risk efforts that could better benefit from
OIG scrutiny and subsequent recommendations to correct any deficiencies OIG identified.

       The four contracts OIG selected for review based on the considerations presented are
described in Table 1.

Table 1. Contracts Selected by OIG for Review
                     Obligations for
Contract Number      FYs 2010–2012            Contractor           Bureau              Purpose
                                       DynCorp International,                  Aviation support
SAQMPD05C1103         $1,236,111,855   LLC                          INL        services
                                       BL Harbert International,               New Embassy
SAQMMA12C0232           $302,434,350   LLC                         OBO         Compound (Jakarta)
                                       AECOM Government                        Military training and
SAQMMA09D0082           $103,865,007   Services, Inc.               AF         logistics
SAQMMA11D0073             $136,307,013 CHS Middle East, LLC         NEA        Health care services
Source: OIG analysis of A/LM/AQM data.




                                              36
                                         UNCLASSIFIED
                                  UNCLASSIFIED


                                                                                              Appendix B
                  Bureau of African Affairs Response

                                                       United States OtJlllrtmc nl of State

                                                       Wusltlngttm, D.C. 20520


UNCLASSIFI ED

MEMORANDUM

TO:          OIG/AUD - Norman P. Brown, Acting

FROM:        AF- Robert    P. Jackson, Acting R1)
SU I3JECT: Comments on Draft Report on Audit of Departmenr ofStMe Selection
           and Positioning ofContracting Qlficer 's Represenlatives

Thank you for the opportunity to review the sub.ject report. Our comments on
Finding 13 and recommendations 1-3 arc below.

Africa Bu•·eau Comments on Findings:

Finding B is that "Challenges Existed With COR Experience, Positioning, and
Oversight Within the Bureau of African Affairs." The Bureau agrees that
challenges existed. We also agree with the subsidiary find ings: that our CORs
were technically qualified to be appointed COR at the time but had less experience
than current regulation s require; that they were not positioned in Africa; and that
CORs made extensive and significant use of third party contractors to enable them
to fulfill their contract oversight responsibilities. However, th e Africa Bureau does
not agree that this "resulted in third -party contractors' performing inherently
governmental functions."

The Reports identifies two sets of activi ties where it believes contractors were
performing inherently governmental functions, in the assignment of contract
employees as site coordinators and in using contract employees 10 perform invoice
reviews.

The Bureau believes that use of Site Coordinators is not a best practice, but tha t it
is not in violation of regulations requiring that only government employees carry
out iuhcrcntly govcrnmenwl function s. The vast ma,iority or AF/RSA contract
work tak es place on the African continent. On-s.ite monitoring is necessary and a
hcst practice would rely on Government Technical Monitors (GTMs) 10 provide
th at <.:<tpability. However, the AF Bureau has heretofore lacked the ability to hire

                                  UNCLASSIFI ED




                                       37
                                  UNCLASSIFIED
                                 UNCLASSIFIED




                                  UNCLASSIFIED
                                         . 2.

individuals on Personal Services Comracts who could serve as GTMs overseas,
and AF Post~ have insufficient staffing to take on GTM responsibilities in house.
Even if the Bureau had PSC hiring authority, in some countries severe space and
administrative constraints would inhibit our ability to hire GTMs, and in other
coun tries, such as Somalia and CAR, insecurity resulting in Post closures and
restrictive travel bans would force the Bureau to rely on contractors, rather than
govemment employees, lo monitor on-site activities.

Under these circumstances, the Africa Bureau believes that in many cases the best
available option, consistent with regulations, is the use of third party contractors as
"Site Coordinator·s."

Table 2 of the Report makes a comparison between the COR's responsibi lities and
the Site Coordinator' s. We think it is worth noting the language used in our DRC
Site Coordinator's position description which makes it clear that this employee is
not permiued to cross the line to perform inherently governmental functions:

       "Serve as a liaison between AF!RSA and any second party commctor, but
wilf not be directly involved with a11y inheremly govemmenlal functions or militmy
activil;es.
       Provide instructions to the second party con tractor at the direction or the
COR, <tnd may be required to perform additional duties related to the projects,
which may include coordination efforts with U.S. contractors, non-governmental
agencies, the U.S. Embassy in Kinshasa, and other U.S. government
rcprcscnwtivcs, as directed by the COR.
       Observe the second party contractor's compliance with all requirements or
its con·tract, and report to the COR.
       Provide guidance to the second party contractor's project and program
marlag·crs, as may be requested by the second party contractor. Any and all such
technical (ISsistcmce and/or direction will be determined by the COR and relayed
to the SC.
       Monitor the second party contractor's personnel are of the same caliber
originally proposed by the second party contractor to the Government and report
ro the COR.
       Work closely with the COR regarding any change order requests,
modifications to the second party contractor's Statement of Work, substitutions
anti/or additions to personnel.
       Assis1the COR with veri fication the second party contractor's invoices and
vouchers ror ractual identification of authorized expenditures.

                                  UNCLASSIFIED




                                      38
                                 UNCLASSIFIED
                                 UNCLASSIFIED




                                  UNCLASSIFIED
                                      - 3-

        o      Conduct daily visits to the second party contractor's area of operations
to complete the followi ng activities: Monitor the second party contractor's
performance;
        o        Monitor changes in the technical performance affecting personnel,
the schedule, deliverables, and price or costs; and
        o        Inspect and monitor the use of Government property.
        Monitor all procurements conducted by the second party contractor for
compliance with the Federal Acquisition Regulations (FAR) for fair and equitable
competition and report to the COR.
        Monitor delivery of equipment and services, and provide reports following
tlze event to tlze COR.
        Provide a memorandum to the COR recommending the 11cceptance or
rejection of equipment, supplies, and/or services, or any activity outlined in
accordance with the terms of the second party contractor's contract.
        Attend and document critical meetings and telephone conversations with the
second party contractor.
        Maintain a logbook, which must reflect the date, time, name, and title of
individual(s) involved, the subject matter, and the details of the
meeting/conversation."
(emphasis added)

The table below is a reproduction of the aforementioned Table 2 of the subject
draft Report with a third column added that shows where the SC's Position
Dl!scril)t ion tics into the COR's responsibilities:
    COR Delegations                 Site Coordinator      Site Coordinator Posilion
       Versus Site                                                Description
   Coordinator Duties
  :lnd Responsibilities
Coordinate with the           Provide technical direction    • Provide instructions
contractor on all             to the second-party               to the second party
technical matters that        contractor's project and          contractor at the
may arise over the            program managers as may           directio11 of tile
course of contract/task       be  requested by  the             COIL
order administration.         second-party contractor.
                              Any and all such technical
                              assistance and/or direction
                              is required to be
                              determined by the COR
                              and relayed to the SC (Site

                                  UNCLASSIFIED




                                      39
                                 UNCLASSIFIED
                               UNCLASSIFIED




                                UNCLASSIFIED
                                    -4-

                          Coordinator].                                             -
Monitor and inspect the   Monitor the second party      •   MonitOr delivery of
contractor's progress     contractor's performance;         equipment and
and performance to        monitor changes in the            services, and provide
assure compliance with    technical performance             reports following the
the contract/tnsk order   affecting personnel, the          eve/11 to the COR.
terms and conditions.     schedule, deliverables, and   •   Monitor all
                          price or costs; and ensure        procurements
                          that second-p~~rt y               conducted by the
                          contractor employees are          second party
                          performing all or the work        contractor for
                          under their contract.             complinnce with the
                                                            Federal Acquisition
                                                            Regulations (FAR)
                                                            for fair and equitable
                                                            compet it ion and
                                                            report to the COR.
                                                        •   Monitor all
                                                            procurements
                                                            conducted by the
                                                            second part y
                                                            contractor fo r
                                                            compliance with the
                                                            Federal Acquisil ion
                                                            Regulations (FAR)
                                                            for fair and equitable
                                                            compel it ion and
                                                            report to the COR.
                                                        •   Observe the second
                                                            party contractor's
                                                            compliance with all
                                                            requirements of its
                                                            contract, and report
                                                            to the COR.

Rct:cive deliverablcs     To the extent possible,       •   Monitor delivery of
(supplies, services       inspect equipment, verify         equipment and
and/or reports) on        services, and provide             services, and provide
hehalt' of the            reports (no later than 2          reports [o f/owing the _
                                UNCLASSIFIED




                                    40
                               UNCLASSIFIED
                                  UNCLASSIFIED




                                   UNCLASSIFIED
                                          - 5-

Government, and verify       days following the                    event to the COR.
satisfaclOry delivery of     inspection) 10 the COR;
contract/ task order items   and provide a
and prepare receiving        memorandum to the COR
reports.                     recommending the
                             acceptance or rejection of
                             equipment, supplies,
                             and/or services, or any
                             activity outlined in
                             accordance with the terms
                             of the second-party
                             contractor's contract.
Approve invoices for         Assist in verifying the           •   Assist the COR wi th
payment.                     second-party contractor's             verification the
                             invoices and vouchers for             second party
                             factual identification of             contractor's invoices
                             authorized expenditures.              and vouchers for
                                                                   factual identification
                                                                   of authorized
                                                                   expenditures.


Upon completion of the       Provide a memorandum
                                                           - •     Provide n
contract, prepare a          (no later than 3 days                 memorandum ro the
statemen t of satisfactory   following the                         COR recommending
performance or a             observations) to the COR               the acceptance or
statemen t of any            as to the state of                      rejection of
deviations, shorwgcs, or     completion of the work                 equipment, supplies,
defi ciencies.               performed by the second-               and/or services, or
                             party contractors and                  any acti vity outlined
                             grantees.                               in accordance with
                                                                     the terms of the
                                                                    second party
                                                                    contractor's contract.
Whrlc the Bureau acknowledges the use ofthrrd party contractors as the COR's
assistant in the field is less than ideal, we arc sensitive to the " inherently
governm ental" function issue and the requirements of the OPE's Procurement
Informa tion Bulletin No. 2012-11. We have underlined that the Site Coordinator


                                   UNCLASSIFIED




                                       41
                                  UNCLASSIFIED
                                 UNCLASSIFIED




                                  UNCLASSIFIED
                                         - 6-

(SC) serves in an advisory-only capacity to the COR and that the SC assumes none
or the COR's inherently governmental functions.
With respect to invoice review, the Africa Bureau agrees th at a best practice would
require that all employees involved in invoice review be government employees.
llowcver, the Bureau does not bclitvc that its current practice, which relies on
contractors to perform a preliminary review before CORs approve invoices,
viola tes regu lations. The Bureau believes that the Report takes out of context a
statement on which this the determination of violation was made: " ... one of th~
Washington-based contractors who assisted with invoice reviews stated that he
rou tinely determined whether contract costs were reasonable, allocable, and
allowable .. .'' T he Bureau believes that the contractor in questi on simply misstated
his duties with no purpose of deceit. The individual concerned will be able to
acknowledge that he makes recommendations tO the COR as to whether contracts
costs nrc "reasonable, allocable and allowable" and simply serves as one set of
eyes on the invoices. The COR always serves as the final arbiter and facwrs in a
variety of technical factors and knowledge of events on the ground before he/she is
able to exercise the final approval of invoices before payment.

Africa Bureau Comments on Recommendations:

The IJurcau fully agrees with recommendation l. Recommendation 2 is included
in Recommendation 3, and the Bureau recommends that they be com hi ned. The
Bureau will respond 10 the recommendations substantively when the report is
received in final.




                                  UNCLASSIFIED




                                      42
                                 UNCLASSIFIED
                             UNCLASSIFIED




Approved: AF - Robert P. Jackson, Acting

                                         [Redacted] (b) (2), [Redacted] (b) (6)


Drafted:   AF/RSA      Greg Pryor, ext




Cleared:   AF/EX             Paul Folmsbee

           AF/RSA            Mike Billrick

           A/OPE             Corey Rindner

           AF/RSA      Kathy Dhanani, Director




                                  43
                             UNCLASSIFIED
                                              UNCLASSIFIED


                                                                                                                  Appendix C
                         Bureau of Administration,
              Office of the Procurement Executive Response

                                                                    United States Department of State
                                                                    Washmgton. D.C. 20520




December 9, 2013



MEMORANDUM



TO:              OIG/AUD-Norman P. Brown, Acting

FROM:            NOPE-Corey M. Rindner ~ ""' .                     ~
SUBJECT:         Draft Report on Audit of Department ofState's Selection and Positioning of
                 Contracting Officer's Representatives dated November 2013



Thank you for the opporturuty to comment on the draft audit report on the important topic of
selection and positioning of CORs. NOPE would like to provide additional information and
clarifications for consideration in finalizing the report and recommendations. The point of
                                                                         [Redacted] (b) (2), [Redacted] (b) (6)
contact for this report is Eric N. Moore who can be reached at 703 -875-          .

Finding B observes that challenges exist with COR experience, positioning and oversight within
the AF bureau. The report holds two CORs to an experience standard that was not in effect at the
time of their appointment. New standards have an effective date to ensure an adequate transition
between the old and the new. The report is unable to determine whether the two AF CORs had
the necessary experience to meet the new standard which was not yet effective at State when
they were appointed. The CORs met the standards then in place.

The report indicates that AF contractor responsibilities "appeared" to be (at least) "closely
associated with inherently governmental functions if not (actually) inherently governmental". It
also indicates that the Department did not provide an additional degree of oversight in violation
of the Federal Acquisition Regulation (FAR). The determination of whether a function is
inherently governmental, closely associated, or commercial is an evaluatio n. Procurement
Information Bulletin (PIB) 2012-1 1, Preventing Contractor Performance of Inherently
Governmental Functions, provides guidance and a DS-4208 form to make this determination.
Both Recommendation 2 and 3 state that AF should "avoid assigning inherently governmental,
critical or closely related functions to contractors, as prohibited by the Federal Acquisition

                                                          1




                                                   44
                                              UNCLASSIFIED
                                        UNCLASSIFIED




Regulation. There is no FAR prohibition against assign ing critical or closely related functions to
contractors, only a caution to provide greater scrutiny and oversight as discussed below.

The Department promulgated guidance on greater scrutiny and oversight in both PIB 20 11 -1 1
Planning for Contract Administration, and 14 FAH-2 H-115, the Contracting Officer' s
Representatives Hamdbook. Mitigation strategies include reserving final decisions and
detem1inations for the government COR to ensure that decisions are made by the government.
The report contains a table comparing COR responsibilities with the duties of contractor site
representatives. The site representative duties appear to reserve decision making for the COR in
compliance with Department guidance. Technical direction is "required to be determined by the
COR". The contractor is to "provide reports to the COR and recommending acceptance or
rejection", "assist in verification'', and "provide a memo to the CO R on the state of completion".
The report cites a statement by a contractor employee that he "detennined cost allowability" as
an indication of an inherently governmental function. Detennining cost allowability would be a
government functio·n. If the invoice was subject to a final review and approval by the COR. then
it would appear that the CO R would be making the final detennination. The contractor
employee should be counseled to correct this misinterpretation and the contractor's duties
clarified.

OPE agrees with the recommendation that AF should seek to hire individuals with current COR
experience to manage programs. OPE also agrees that bureaus should expand the number of
government CORs to ensure more oversight and to retain critical capability. OPE is concerned,
however, that the interpretation on the use of contractor support may limit the use of a legitimate
contractor suppon.

finding C relates to COR Workforce Management and Planning. OPE offers some additional
information for clarification.
Previously, the Department had no method of tracking the training and qual ifications ofCORs.
documenting their certification, and providing this information to contracting oflicers for their
use in appointing CORs and managing the process. OPE created a management tool consisting
of a web based system where CORs could document their credentials, obtain supervisor
approval. obtain OPE verification and assignment of certification level. and provide an on-line
method for the contracting officer to verify the certification status of a COR before making a
contract appointment. In addition, the system provides each bureau with the abi lity to identify
certified CORs working for that bureau as well as providing a rem inder to CORs via email about
the need to recertify. Recertification status is also managed in the system. /\s indicated in the
report, contracting officers are using this tool to appoint certified CORs. This significant
accomplishment created a management system for certifying, identifying and tracking certified
CORs.



                                                 2




                                             45
                                        UNCLASSIFIED
                                       UNCLASSIFIED




The report correctly points out that the system tracks only the certification status of the CORs,
but docs not track actual contract assignments. The system has been modi lied to include a data
element for contract assignment which should resolve Recommendation 4.

The report correctly notes that OPE obtained additional information for the Department's
Acquisition Workforce Human Capital Plan from DS, OBO, JNL and NEA about upcoming
projects as well as those bureaus current COR workforce and projected COR staffing needs.
While these bureaus represented numerically less than half of the Department's FAC-COR
qualified workforce, they represented bureaus with challenging and extraordinary requircmeets
in lroq and Afghanistan. These are a.lso the bureaus with the highest levels of expenditures on
contracts. The Acquisition Workforce Human Capital Planning exercise resulted in these bureaus
focusing on their most challenging requirements. OPE concurs with Rccommcndntion 5 and
wi ll request additional information from all bureaus.

The report docs not identify several significant initiatives and accomplishments to improve the
selection and positioning of CORs. The Department updated COR training to make it more
relevant, skills based and adult learning centered. A contracting officer was assigned to be the
course manager to ensure COR training focuses on the relationship between the CO R and the
contracting officer. The throughput of training increased. A COR electronic "homeroom" was
developed by FSJ to enhance the COR sense of community and to share best practices. Semi·
annual COR workshops have been held with hundreds of CORs in attendance at each session to
share best practices and issues. O!G, GAO, DOD and other agency presenters added important
perspectives. An annual COR award now recognizes COR accomplishments and raises the
visibility and importance of the function.

Finding D relates to COR specific policies. To qualify as a COR, individuals must be certified
by OPE based on required training and contract administration experience. Program Offices
nominate certified individuals with the necessary technical knowledge to be ef1ective oversight
personnel on a specific program. While OPE can, and does. provide guidance on training and
contract administration experience, technical subject matter expertise cannot be standardized and
must. by necessity, be defined for each program contract by the Program Office. Contracting
Officers perform a check of reasonableness to see if any relevant experience is cited, but neither
they nor OPE can define the appropriate level of technical experience.

14 FAH·2 H- 143.2 COR Appointment Procedures identifies the process for nominating
individuals to serve as CORs. DOSAR 642.270 discusses the requirement for a nomination
memorandum and references OPE samples. The sample memorandum requires the nominating
office to detail training, technical qualifications and experience including dates and types of
work performed. This is the same infonnation cited in the report for OBO nominations where the
report stated that "the summary of each nominee's assignment and training history" provided the
Contracting Officer with the information needed for appointment. Since this information is
already required, OPE requests clarification of Recommendation 6.

                                                 3




                                            46
                                       UNCLASSIFIED
                                      UNCLASSIFIED




Recommendation 7 requires OPE to develop and issue policy on how Contracting Officers
should make a determination of the appropriate certification level required for a particular
contract. OMB identified the criteria for each of the three levels of COR certification. These
criteria are contained in Procurement Information Bulletin (PTB) 2012-1 5. OMS's pltrpose in
establishing these criteria was to provide contracting offic.crs with latitude tO detem1ine an
appropriate level of ccrtification. OPE disagrees with substituting additional criteria for
contracting officer judgment. OPE will work with AQM to ensure contracting officers
understand the criteria.
Performance evaluations: A/OPE and DGHR implemented a requirement for individuals with
COR responsibilities covering at least 25% of their work to be evaluated on these duties. Sample
work commitments were promulgated and defined in Department Notices and FAH guidance in
January and April 2011 . We are not aware that other agencies promulgated a similar
requirement.

The report detem1ined that 75% of CORs reviewed had relevant work elements. Considering this
is a two year old requirement. this would appear to be a positive finding. OPE agrees with
Rccommcndntion 8 on the need to continue to evaluate compliance with this requirement and
will select a judgmental sample of CORson a periodic basis to val idate that relevant work
clements are included in perfonnance appraisals.
Recommendation 9 identifies as a deficiency a Jack of standardized guidance on how to
evaluate CORs who are not Civil Service or Foreign Service personnel. Offices within the
Depanment use When Actually Employed (WAE) personnel to perform essential services.
WAE may serve for limited periods of time and arc invited to return only if the performance of
their duties was deemed adequate by employing supervisors. Because WAE may only work part
of the year, their ability to serve as CORs is limited, as is tmy evaluation period. OPE
recommends that any recommendations for changing the way WAE are currently evaluated be
directed to DGHR for application to all WAE performers.

Bureaus util ize dctailees from other bureaus as well as from other agencies. Detailee work
requirements are documented in a memorandtm1 of agreement (MOU) that defines duties and
responsibilities. Since detailces remain employees of the home bureau or agency, receiving
organizations provide feedback to the home office on detailee performance. Because detailees
serve a limited duration, their use as CORs is limited. OPE requests that any recommendations
for changing the way detailec performance is evaluated be directed to DGHR for application to
all detailce assignments.

Personal Services Contractors are renewed on an annual basis. Bureaus review PSC
performance annually prior to renewal and document the assessment. Duties are detailed in the
Statement of Work of the contract. OPE recommends that the report consider how PSCs arc
currently evaluated prior to determining the need for a different approach.

                                                4




                                           47
                                      UNCLASSIFIED
                                        UNCLASSIFIED




3161 authority is limited within the Department and allows for employment for a one year
period. NEA/SCA use.d 3161 authority to support missions in Iraq and Afghanistan. Much of this
authority has expired. NEA/SCA advised that they perfom1 an annual evaluation of3161
perfom1ance prior to renewing boU1lhc need for the position and the extension of an individual
assignment. Since 3161s are used in discipl ines beyond contract administration, and the authority
is lapsing OPE requests that any recommendations for changing how 3161 employees arc
evaluated be directed to DGHR.

Recommendation 10 requests that OPE and DGHR standardize the method of obtaining
contracting officer feedback on COR performance. OPE will add a requirement for supervisors
of employees with COR work commitments to obtain feedback via email or telephone discussion
from contracting officers when drafting performance appraisals similar to how inputs are
currently obtained from ofrices that are supported by individuals. OPE will also advise bureaus
using resources such as personal services contractors to also obtain contracting officer feedback.




                                                 5




                                             48
                                        UNCLASSIFIED
                                     UNCLASSIFIED


Major Contributors to This Report
Melinda M. Perez, Director
Contracts and Grants Division
Office of Audits

Mark P. Taylor, Audit Manager
Contracts and Grants Division
Office of Audits

Phillip A. Ropella, Senior Auditor
Contracts and Grants Division
Office of Audits

Patrick M. Sampson, Senior Auditor
Contracts and Grants Division
Office of Audits

Cristina G. Ward, Senior Auditor
Division of Contracts and Grants
Office of Audits




                                          49
                                     UNCLASSIFIED
       UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

          CONTACT THE
  OFFICE OF INSPECTOR GENERAL
             HOTLINE
       TO REPORT ILLEGAL
    OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




       UNCLASSIFIED
